<html>
<title> - OVERSIGHT HEARING ON EXAMINING OPPORTUNITIES TO IMPROVE PREVENTION AND RESPONSE OF SEXUAL ASSAULT AND SEXUAL HARASSMENT AT THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 EXAMINING OPPORTUNITIES TO IMPROVE PREVENTION AND RESPONSE OF SEXUAL 
ASSAULT AND SEXUAL HARASSMENT AT THE NATIONAL OCEANIC AND ATMOSPHERIC 
                            ADMINISTRATION

=======================================================================

                           OVERSIGHT HEARING

                              BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, February 27, 2020

                               __________

                           Serial No. 116-33

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-379 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
          
          


                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Joe Cunningham, SC                   Daniel Webster, FL
Nydia M. Velazquez, NY               Liz Cheney, WY
Diana DeGette, CO                    Mike Johnson, LA
Wm. Lacy Clay, MO                    Jenniffer Gonzalez-Colon, PR
Debbie Dingell, MI                   John R. Curtis, UT
Anthony G. Brown, MD                 Kevin Hern, OK
A. Donald McEachin, VA               Russ Fulcher, ID
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Jesus G. ``Chuy'' Garcia, IL
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                               ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                           TJ COX, CA, Chair
              LOUIE GOHMERT, TX, Ranking Republican Member

Debbie Dingell, MI                   Paul A. Gosar, AZ
A. Donald McEachin, VA               Mike Johnson, LA
Michael F. Q. San Nicolas, GU        Jenniffer Gonzalez-Colon, PR
Raul M. Grijalva, AZ                 Rob Bishop, UT, ex officio
                                 
                               ------                                
                               
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, February 27, 2020......................     1

Statement of Members:
    Cox, Hon. TJ, a Representative in Congress from the State of 
      California.................................................     1

    Gonzalez-Colon, Hon. Jenniffer, a Resident Commissioner in 
      Congress from the Territory of Puerto Rico.................     3

Statement of Witnesses:
    Dale, Julie, Prevention and Education Manager, Standing 
      Together Against Rape, Inc., Anchorage, Alaska.............    11
        Prepared statement of....................................    12

    Jacobs, Neil, Assistant Secretary of Commerce for 
      Environmental Observations and Prediction, performing the 
      duties of Under Secretary of Commerce for Oceans and 
      Atmosphere, National Oceanic and Atmospheric 
      Administration, Washington, DC.............................     5
        Prepared statement of....................................     6
        Questions submitted for the record.......................     8

    Seabrook, Linda, General Counsel and Director, Workplace 
      Safety and Equity, Futures Without Violence, Washington, DC    13
        Prepared statement of....................................    15
        Questions submitted for the record.......................    17

Additional Materials Submitted for the Record:
    Anonymous Submission, Written Testimony of an Anonymous NOAA 
      Scientist..................................................    32
    Association for Professional Observers, Written Testimony of 
      Elizabeth Mitchell.........................................    35
    Cagilaba, Simione S.B., U.S. Multilateral Treaty Observer, 
      South Pacific, Written Testimony...........................    39
    Carroll, Patrick, U.S. Fisheries Observer, Written Testimony.    42
    List of documents submitted for the record retained in the 
      Committee's official files.................................    43



 
OVERSIGHT HEARING ON EXAMINING OPPORTUNITIES TO IMPROVE PREVENTION AND 
   RESPONSE OF SEXUAL ASSAULT AND SEXUAL HARASSMENT AT THE NATIONAL 
                 OCEANIC AND ATMOSPHERIC ADMINISTRATION

                              ----------                              


                      Thursday, February 27, 2020

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 1324, Longworth House Office Building, Hon. TJ Cox 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Cox and Gonzalez-Colon.
    Also present: Representative Huffman.

    Mr. Cox. The Subcommittee on Oversight and Investigations 
will now come to order.
    The Subcommittee on Oversight and Investigations is meeting 
today to hear testimony on sexual harassment at the National 
Oceanic and Atmospheric Administration.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Clerk by 5 p.m. today.
    Hearing no objection, so ordered.

STATEMENT OF THE HON. TJ COX, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Cox. Good afternoon, and thank you, everyone, for 
joining us today, and to our witnesses for giving your time to 
be here.
    At a previous hearing on sexual harassment at the 
Department of the Interior, we heard from witnesses that 
employees who work in remote, isolated places like national 
parks are at a higher risk of being sexually harassed. But 
remote workplaces are not limited to our public lands. Men and 
women who work in our fisheries and oceans, like those with the 
National Oceanic and Atmospheric Administration, or NOAA, are 
also at risk. Today's hearing will look at how sexual 
harassment and assault has affected NOAA employees, and how 
NOAA is trying to address the issue.
    Sexual assault and sexual harassment are not new problems 
at NOAA. In 2014, whistleblowers spoke about how pervasive 
these issues are, especially among female scientists and 
contractors. Addressing sexual harassment at any organization 
is challenging, but NOAA's complex, decentralized structure and 
the nature of the duties many of its workers perform makes it 
especially challenging for them.
    Many of NOAA's 12,000 employees and approximate 7,700 
contractors are stationed at sea or other remote locations and 
workplaces that are frequently male-dominated, physical in 
nature, and far away from the usual support services.
    In the National Defense Authorization Act for 2017, 
Congress directed NOAA to take steps to address this issue, 
including issuance of a comprehensive sexual assault and 
harassment policy, and establishment of victims advocacy 
program. NOAA has not only met most of its objectives, but, as 
we will hear today, there is still room for improvement and the 
need for additional authorities and resources.
    For example, their Workplace Violence Prevention and 
Response Program, which is responsible for coordinating all 
harassment and assault reporting, implementing a holistic 
training platform, and providing services to its victims across 
the organization, is up and running. But it is severely under-
staffed, with only a single person. In a 2018 report to 
Congress, NOAA detailed 22 allegations of sexual assault from 
2015 to 2018. And the newest report that was just submitted to 
us this week showed two additional allegations.
    Most of these assaults are reported by fishery observers. 
Fishery observers are employees who are often stationed aboard 
private commercial fishing vessels or in processing plants, 
where they collect samples and data to support NOAA's mission. 
Many of these observers are young female college graduates who 
are just starting their careers in the scientific field. And 
Federal law requires their presence on fishing vessels, but 
that doesn't mean crew members and captains appreciate them 
being there and are enforcing regulations.
    Observers have frequently reported hostility and general 
harassment from crew members. And when aimed at female 
observers, this hostility often takes the form of sexual 
harassment or assault. Making matters worse, there is often 
only one observer on a vessel, and sometimes the only woman 
onboard, out in the ocean, far from port for weeks or even 
months at a time. And despite these vulnerabilities, fishery 
observers do not currently qualify for the same access to many 
of the sexual assault and harassment prevention and response 
services that NOAA offers.
    These observers and other similarly positioned NOAA workers 
need protection from further harm, and not just the most severe 
instances like sexual assault. There also needs to be a 
commitment to prevent those less obvious but still harmful 
behaviors, like inappropriate jokes or comments that observers 
have come to accept as simply part of the job. This behavior, 
no matter the intention, degrades women's feelings of safety 
and security on the job, which, undoubtedly, only further 
widens the gender gap we see in science, technology, 
engineering, and math, or the STEM fields.
    A change is possible, but it will not come by simply 
checking the boxes for policy updates or verbal commitments. A 
real sustained shift in how NOAA workers are treated will 
require a persistent time and financial commitment of resources 
from the leadership to changing a culture that has existed for 
years, or even decades.
    NOAA has the responsibility to build a respectful culture 
within the STEM maritime and aviation fields that is free of 
sexual discrimination and harassment. As one oceanographer and 
mariner, Dr. Julia O'Hern, wrote in a Washington Post op-ed, 
``I want future female deckhands, technicians, captains, and 
other professionals to expect without hesitation that they, 
too, can embrace science and the sea.''
    I look forward to hearing from our witnesses more about how 
we can achieve exactly that.
    With that, I will now recognize Ranking Member Gonzalez-
Colon for her opening statement.

   STATEMENT OF THE HON. JENNIFFER GONZALEZ-COLON, A RESIDENT 
   COMMISSIONER IN CONGRESS FROM THE TERRITORY OF PUERTO RICO

    Miss Gonzalez-Colon. Thank you, Mr. Chairman. Good morning. 
I thank the Chairman and the witnesses for being here today to 
discuss a very important topic, the National Oceanic and 
Atmospheric Administration's efforts to address sexual assault 
and harassment in the workplace. And I think that is one of the 
biggest issues for many of the Members of Congress that are 
here today.
    First, let me say that I think this issue of sexual assault 
and sexual harassment is very serious. It cannot be tolerated 
in a Federal workforce. And every employee deserves a workplace 
free of sexual assault and harassment.
    Understanding this, NOAA has begun to develop a new agency 
initiative, a SASH prevention program. SASH stands for sexual 
assault and sexual harassment. The SASH prevention program 
mission is to establish a culture of professionalism and 
respect through education, training, and, when needed, victim 
response and support. NOAA has taken several important steps to 
begin implementing the SASH preventive program.
    For example, NOAA has opened a help line which provides 
crisis intervention, referrals, and emotional support to 
victims of sexual assault and harassment. This help line can be 
accessed 24 hours a day, 7 days a week. Additionally, the 
agencies have written and implemented a sexual assault and 
sexual harassment prevention and response policy, and this zero 
tolerance policy defines unacceptable behavior, encourages 
employees to report such behavior, and outlines available 
resources for victims.
    These are all steps in the right direction, and I am 
encouraged by NOAA's action. And to understand the bigger 
picture, we must examine the data on sexual assault and 
harassment at NOAA.
    In 2017, NOAA published its first data on this topic. Last 
year, the agency found that 4 instances of sexual assault and 
21 instances of sexual harassment had taken place. The 
following year, the number of reported cases of sexual assault 
increased to 22, while the reported numbers of incidents of 
sexual harassment increased to 52. While still nowhere near 
perfect, these numbers declined to 2 allegations of sexual 
assault and 34 sexual harassment allegations in 2019. This is 
progress, but again, more work remains.
    And Ms. Kelley Bonner, who serves as NOAA workplace 
violence advocate and is the only career official working on 
the SASH prevention program, is in the audience today. Thank 
you, and welcome to this hearing.
    When she met with our Committee staff prior to the release 
of the 2019 report, she estimated that an increase in the 
number of reported instances of sexual assault and harassment 
will occur in the short term, but that NOAA's work will 
eventually produce a downward trend. The latest numbers in the 
2019 report indicate that the program may be seeing some 
success.
    In the 2019 report, however, it also indicates that it is 
premature to speak to any trends or discuss improvement as a 
result of these efforts. And I agree, given the limited data, 
that trends are difficult to determine at this point. NOAA has 
more work to do, and the agency should keep the Committee 
apprised of the important developments and further statistics 
on the SASH prevention program.
    In the last hearing held by this Subcommittee in October, 
we discussed sexual harassment in the Department of the 
Interior. At this hearing, the Department reported that the 
percentage of their employees who knew how to report harassment 
jumped from 62 percent in 2017 to 94 percent in 2018. In turn, 
the percentage of Department employees who experienced 
inappropriate behavior dropped from 35 percent in 2017 to 18 
percent in 2019.
    Statistics like this confirm that as the knowledge of how 
to report instances of sexual harassment increases, such 
unacceptable behavior decreases, thanks to God. As we discuss 
sexual assault and harassment today, please keep these 
statistics in mind, and they will serve as a model for other 
agencies, including NOAA.
    I look forward to the hearing and to hearing more about 
NOAA's SASH prevention program and the continued efforts to 
eliminate sexual assault and harassment in our workforce.
    Thank you and I yield back.

    Mr. Cox. Thank you, Ranking Member.
    Unfortunately, votes have been called and we will need to 
recess and come right back. We appreciate everyone's patience.
    So, the hearing is now in recess, subject to the call of 
the Chair.
    [Recess.]
    Mr. Cox. I want to thank the witnesses in the audience for 
your patience and forbearance. The Subcommittee on Oversight 
and Investigations will now come back to order.
    I would like to introduce our witnesses today. Dr. Neil 
Jacobs is the Assistant Secretary of Commerce for Environmental 
Observations and Prediction, performing the duties of Under 
Secretary of Commerce for Oceans and Atmosphere at the National 
Oceanic and Atmospheric Administration. Ms. Julie Dale is the 
Prevention and Education Manager at Standing Together Against 
Rape, Inc. And Ms. Linda Seabrook is General Counsel and 
Director of Workplace Safety and Equity at Futures Without 
Violence.
    Under Committee Rules, oral statements are limited to 5 
minutes, but your entire statement will appear in the hearing 
record.
    The lights in front of you will turn yellow when there is 1 
minute left, and then red when time has expired.
    After the witnesses have testified, Members will be given 
the opportunity to ask some questions.
    With that, the Chair will now recognize Dr. Neil Jacobs.

 STATEMENT OF NEIL JACOBS, ASSISTANT SECRETARY OF COMMERCE FOR 
   ENVIRONMENTAL OBSERVATIONS AND PREDICTION, PERFORMING THE 
     DUTIES OF UNDER SECRETARY OF COMMERCE FOR OCEANS AND 
 ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
                         WASHINGTON, DC

    Dr. Jacobs. Thank you, Chairman Cox, Ranking Member 
Gonzalez-Colon, and Representative Huffman, for inviting me 
here to testify today before you on how NOAA is working to 
prevent sexual assault and sexual harassment and to ensure a 
safe environment for our workforce to carry out their critical 
mission.
    NOAA faces specific risk factors for SASH. We have a 
decentralized workforce that spans over 600 locations in all 
the U.S. states and territories. Some workers are in isolated 
locations with limited access to resources.
    NOAA is also in the midst of a generational shift within 
the workforce, with an influx of younger employees highlighting 
clashing generational attitudes toward appropriate behavior in 
the workplace. Nothing typifies the convergence of these risk 
factors better than fishery observers who are placed on 
commercial fishing vessels to collect fisheries data.
    The job of an observer is challenging, as they work 
alongside fishermen in stressful and often hazardous 
conditions. Because their job involves reporting observations 
related to compliance with the fisheries regulations, they can 
become the target of interference, intimidation, and 
harassment, including sexual harassment and assault.
    NOAA trains fishery observers to recognize and report 
harassment. Satellite phones and other independent 
communication devices, such as personal locator beacons, are 
made available.
    Regional observer programs in NOAA's law enforcement office 
respond to and provide victim assistance resources to reported 
incidents and observers of sexual assault and harassment.
    While fishery observers remain one of the highest-risk 
populations for sexual harassment and assault, these have also 
occurred on NOAA's research vessels and in agency facilities. 
For some employees, sexual harassment creates a daily struggle 
that has profound impact on the victim's professional 
development, performance, and overall well-being.
    NOAA's Workplace Violence Prevention and Response Program 
is the center of expertise for addressing SASH issues at NOAA. 
The program is in its second year of operation and is focused 
on three strategic goals: (1) embedding full-time victim 
advocates in all major regional campuses; (2) providing 
comprehensive prevention services; and (3) ensuring training to 
increase competency around addressing harassment.
    NOAA has several contracts with leaders in bystander 
intervention, victim advocacy, computer-based training, and 
prevention of sexual assault and sexual harassment in the 
workplace.
    One contract with Standing Together Against Rape (STAR) 
allows NOAA employees, contractors, and affiliates in Alaska to 
receive victim advocacy services, including crisis intervention 
and emotional support.
    To undertake the agency's prevention and assessment needs, 
we contracted with Soteria Solutions, an international leader 
in sexual assault and sexual harassment prevention, to develop 
prevention products, including bystander intervention for 
NOAA's highest-risk areas.
    A third contract is with EverFi, a leading computer-based 
training specializing in sexual harassment prevention that will 
provide foundational training to the entire NOAA workforce. 
Three weeks ago, I announced EverFi's computer-based training 
via an all-hands message. A 1-hour version of this training is 
mandatory for all NOAA employees, and a more comprehensive 2-
hour version is mandatory for all NOAA supervisors, myself 
included.
    The scope and complexity of the issues at NOAA demanded a 
comprehensive, multi-pronged strategy that includes dedicated, 
full-time staff to execute it successfully. To date, we only 
have one full-time victim advocate at NOAA in the Workplace 
Violence Prevention Program, but are working expeditiously to 
provide additional staffing and resources.
    NOAA has created a SASH council that meets monthly and 
engages stakeholders on a topic to track data trends and 
prevention initiatives.
    NOAA continues to train its workforce and will be providing 
cutting-edge education from leaders in the field of sexual 
assault and sexual harassment prevention, diversity, inclusion, 
and civility via an upcoming summit this fall.
    I have only been at NOAA for 2 years, and I assumed the 
role of Acting Agency Head a year ago. While we still have a 
long way to go, I want to recognize the significant progress 
that has taken place over the last 18 months. Kelley Bonner has 
done an amazing job designing this program and setting a new 
course.
    While she is NOAA's subject matter expert, I am grateful to 
have this opportunity to be here today so that I can tell you 
myself that prevention of sexual harassment and assault is a 
top priority. In fact, the Fiscal Year 2020 budget request of 
$2.7 million is the highest percent increase of any new program 
in the agency. This request not only reflects my commitment in 
addressing SASH, but also my confidence in the plan that we 
have set into motion to address these long-standing issues.
    I thank you for your attention on this very important 
topic, and I am happy to answer any questions you have.

    [The prepared statement of Dr. Jacobs follows:]
Prepared Statement of Dr. Neil Jacobs, Assistant Secretary of Commerce 
for Environmental Observations and Prediction, performing the duties of 
         Under Secretary of Commerce for Oceans and Atmosphere
                              introduction
    Thank you, Chairman Cox, Ranking Member Gohmert, and Committee 
members for allowing me to testify before you today. I am here to 
discuss NOAA's efforts to address and prevent sexual assault and sexual 
harassment, or ``SASH,'' as well as NOAA's unique and ongoing 
challenges in meeting this goal.
    NOAA's Workplace Violence Prevention and Response Program is the 
center of expertise with regard to sexual assault and sexual 
harassment. The program is working to set up agency-wide prevention 
services, and to establish victim advocacy for the agency. Victim 
advocacy is a unique facet of legislation requiring NOAA to respond to 
SASH issues, and NOAA will be the first civilian Federal agency to have 
embedded victim advocates, providing a critical service to our entire 
organization.
    To understand SASH issues within NOAA, you must first understand 
the specific risk factors NOAA faces. For one, NOAA has a decentralized 
and a complex workforce. NOAA's workforce spans over 600 locations in 
all U.S. states and territories, and is routinely deployed on ships and 
planes in state, federal, and international waters. Moreover, within 
these dispersed geographic locations are isolated workplaces with 
limited resources. Finally, NOAA is in the midst of a generational 
shift within its workforce.
    Nothing typifies the convergence of all three of these risk factors 
better than fisheries observers. These approximately 851 contractors 
and privately employed biologists are placed on commercial fishing 
vessels and tasked with collecting an independent fisheries catch and 
bycatch data along with recording fishing activities. While fishery 
observers are deployed in state, federal, and international waters 
around the country, they spend the most time at sea in Alaska, where 
they may be contracted to work on vessels for up to 90 days. The job of 
a fisheries observer isn't easy as they work alongside fishermen in 
stressful, strenuous, and hazardous conditions. Observers are often 
viewed as outsiders with oversight responsibilities. Therefore, they 
are at a high risk for bullying and intimidation, sexual and physical 
harassment, and violence.
    Regional Observer Programs (ROPs) coordinates with NOAA's Office of 
Law Enforcement (OLE) to train fisheries observers to recognize and 
report any type of harassment. ROPs also ensure satellite phones or 
other independent communication devices such as In-Reach or Personal 
Locator Beacons (PLBs) are available for observers seeking help. In the 
unfortunate event of sexual assault or harassment, ROPs provide NOAA 
SASH resources to observers.
    While fisheries observers remain one of the highest-risk 
populations for sexual harassment or assault, there are others who 
experience harassment and assault in NOAA's fleet and research vessels, 
offices and other Agency facilities. For these employees, sexual 
harassment creates a daily struggle that interferes with their personal 
and professional lives and costs the Agency in a myriad of ways. The 
psychological effects of sexual assault and sexual harassment have a 
profound impact on a victim's professional development, performance, 
and overall physical and emotional well-being. Organizationally, these 
incidents create a culture of low morale, have economic impacts, and 
compromise the integrity of the Agency's mission and science.
    To achieve a measureable reduction in sexual assault and 
harassment, NOAA's Workplace Violence program has focused on three 
strategic goals and has received additional resources. These goals are 
in line with both the 2016 EEOC's Select Task Force on Harassment in 
the Workforce and the 2018 National Academies of Sciences, Engineering, 
and Medicine study, Sexual Harassment of Women: Climate, Culture, and 
Consequences in Academic Sciences, Engineering, and Medicine.

    The three goals developed for NOAA's Workplace Violence program 
focused on a streamlined response, and include:

  1.  Full-time regional victim advocates embedded in all major 
            regional campuses across NOAA;

  2.  Comprehensive prevention services; and,

  3.  Leadership education and engagement to increase competency and 
            comfort around addressing harassment.

    To achieve these goals while addressing NOAA's unique challenges, 
we procured six contracts with the leading organizations in the field 
for bystander intervention, victim advocacy, computer-based training, 
and overall prevention in sexual assault and sexual harassment in the 
workplace.
    One contract, with STAR (Standing Together Against Rape), 
specifically focuses on providing services for NOAA staff in Alaska. 
The STAR contract allows any NOAA employee, contractor, or affiliate to 
specifically reach out to STAR to receive victim advocacy services. 
This includes the traditional services of crisis intervention, 
emotional support, and connection to additional resources. It also 
includes expanded services of hotel accommodations and follow-up 
telephonic support.
    To undertake the agency's prevention and assessment needs, we 
contracted with Soteria Solutions. Soteria Solutions, known for its 
``Bringing in the Bystander'' product, is an international leader in 
sexual assault and sexual harassment prevention. They are working with 
NOAA on a targeted assessment via focus groups. From this assessment, 
Soteria will produce a suite of prevention products that will include 
bystander intervention for the highest risk areas of the agency for 
2020.
    A third contract is with EverFi, a leading computer-based trainer, 
specializing in sexual harassment prevention. This contractor will 
provide foundational training to the entire NOAA workforce. I announced 
EverFi's computer-based training this month via an all-hands message. A 
1-hour version of this training is mandatory for all NOAA employees, 
and a more comprehensive 2-hour version is mandatory for all NOAA 
supervisors. This training incorporates the NOAA SASH policy, 
interactive components, and video.
    The scope of the issues at NOAA demands a comprehensive, multi-
pronged strategy that requires dedicated, full-time staff to execute it 
successfully. To date, we have only full-time employee at NOAA in the 
workplace violence prevention program. However, in January of this 
year, two NOAA employees were assigned to work in the program on a 1-
year detail.
    Additionally, two critical full staff positions have been 
advertised, and interviews have been conducted and selections made, 
although we do not yet have firm on-boarding dates. Along with an FY21 
request of $1.7M over the base of $1.0M, this upcoming infusion of 
staffing resources will allow NOAA's workplace violence prevention 
program to continue to mature. NOAA also continues to develop 
innovative ways to tackle sexual harassment and sexual assault. For 
example, NOAA has created a Sexual Assault/Sexual Harassment Council 
that is chaired by the Deputy Under Secretary for Operations and 
includes senior NOAA leaders with equities in the SASH arena. The 
Council meets monthly and engages stakeholders on the topic to track 
data, trends, and prevention initiatives.
    Moreover, NOAA continues to train its workforce and will be 
providing cutting-edge education from leaders in the field of sexual 
assault and sexual harassment prevention, diversity and inclusion, and 
civility via an upcoming summit this fall. This summit will provide in-
person training to NOAA's leadership, general workforce, and 
practitioners in the field of sexual assault and sexual harassment, and 
diversity and inclusion. Live-streamed panels, workshops, and webinars 
from the summit will be available to the entire NOAA workforce.
    More remains to be done. Although we recently have made significant 
strides, I commit that our Agency will continue to prioritize its 
efforts in the prevention and response to sexual harassment and 
assault. We will ensure the foundation we've started building remains 
strong and lasting. The workforce deserves no less. I thank you for 
your attention to this important topic and for the opportunity to 
testify before you today. I am happy to answer any follow-up questions.

                                 ______
                                 

   Questions Submitted for the Record to Dr. Neil Jacobs, Assistant 
  Secretary of Commerce for Environmental Observation and Prediction, 
  performing the duties of Under Secretary of Commerce for Oceans and 
      Atmosphere, National Oceanic and Atmospheric Administration
                    Questions Submitted by Rep. Cox
    Question 1. In your testimony, you indicated that observers are 
equipped with a beacon (presumably an emergency position-indicating 
radiobeacon or EPIRB), which communicates with NOAA-operated satellites 
to indicate distress and need of immediate rescue. These devices do not 
provide for two-way communications, merely an indication that a person, 
vessel, or aircraft is in distress at a specific location. We 
understand that some observers, depending on their region and provider 
employer do receive two-way communication devices that would allow for 
a proportional response. Does NOAA have the authority to develop a 
policy to provide a standard means of communication for observers 
deployed at sea?

    Answer. All observers are issued a unique personal locator beacon 
(PLB), separate from the vessel's EPIRB, and are encouraged to notify 
the United States Coast Guard (USCG), their employer, and NOAA (the 
Agency) with this distress signaling device in any unsafe situation. 
NOAA Fisheries also provides secure, two-way communication between an 
observer, NOAA Fisheries staff, and the observer's employer (either 
through InReach satellite communicators, Iridium satellite phones, 
encrypted data transmission, or cell phones issued by their employers). 
The type of device issued is dependent on the length and location of 
deployment such as short, nearshore day trips vs. multi-week or month-
long deployments. Recognizing that cell phones only work in nearshore 
operations, observers deployed in the Gulf of Mexico and Pacific 
Islands fisheries are issued Iridium satellite phones while observers 
deployed in the Mid-Atlantic and West Coast regional fisheries deploy 
with InReach Satellite communicators. North Pacific Groundfish and At-
Sea Hake fishery observers submit encrypted data and text messages 
daily to regional observer program staff through the Agency provided, 
encrypted data transmission system known as ATLAS.

    Question 2. Fisheries observers are not the only workers in a 
unique employer arrangement. There are also protected and endangered 
species observers that are required by NOAA to be present on privately 
owned geophysical survey vessels, dredges, and underwater construction 
for the purposes of mitigating take of marine mammals, turtles, and 
other species. What does NOAA consider its authority or responsibility 
to provide resources and protection to protected and endangered species 
observers?

    Answer. NOAA prioritizes the safety of our observers. NOAA's Office 
of Law Enforcement (OLE) has staff in each division who focus on 
observer safety. Each year, OLE personnel participate in outreach and 
education to ensure observer safety along with fishermen, observers, 
stakeholders, and state and Federal partners. During observers 
training, OLE provides a safety training module to show observers how 
to report inappropriate activity and behavior and the importance of 
doing so. The observers are shown examples of unacceptable behavior and 
taught what steps they can take if something inappropriate happens 
during a scheduled fishing trip. Throughout the year, OLE continues to 
provide outreach to ensure that observers feel comfortable with 
reporting issues to their supervisors and OLE. In addition, OLE meets 
with fishing vessel crews, captains, and fishing company managers to 
ensure that they clearly understand the type of behavior that 
constitutes assault and harassment of observers. Finally, OLE informs 
stakeholders and our industry partners of the potential penalties for 
not providing a safe environment for observers, both at sea and at 
shore-side processing facilities.
    However, the protected resources observers required as part of 
mitigation or terms and conditions of a Marine Mammal Protection Act 
Incidental Take Authorization or Endangered Species Act Biological 
Opinion are employed by companies that are contracted by entities 
conducting the activities (e.g., action agencies, private sector 
companies in construction, geophysical surveys, or other). The 
contracting companies employing the protected species observers are 
responsible for ensuring that any harassment or safety issues are 
mitigated. Protected species observers are similar to fishery observers 
as both are employed by private companies, however the Magnuson-Stevens 
Act authorizes criminal, as well as civil administrative, penalties for 
harassing, forcibly assaulting, opposing, or intimidating a fishery 
observer or interfering with their duties. While those penalties are 
not available under the Marine Mammal Protection Act and Endangered 
Species Act, other local, state, and Federal laws regarding assault and 
harassment may apply.

    Question 3. NOAA has proposed incidental take regulations that 
would authorize the take of nearly 200 percent of the Gulf of Mexico 
Bryde's whale annually, or over 1,300 percent over 5 years, in addition 
to nearly 9,000 percent of the sperm whale population and over 40,000 
percent of the beaked whale population for seismic oil and gas surveys 
(83 Fed. Reg. 29212). NOAA's analysis places significant weight on 
mitigation by protected species observers. Considering that these 
observers would be the final backstop to halt operations, how does NOAA 
propose to protect these observers from harassment, intimidation, and 
assault?

    Answer. In February 2020, the Department of Interior revised the 
scope of the requested incidental take regulations by removing the area 
currently under a leasing moratorium--as established under the Gulf of 
Mexico Energy Security Act--from consideration. NOAA issued a new 
biological opinion under the Endangered Species Act in March 2020 based 
on DOI's revised action. NOAA is also considering DOI's revised scope 
of action as it develops the final rulemaking.
    The protected resources observers required as part of mitigation or 
terms and conditions of a Marine Mammal Protection Act Incidental Take 
Authorization or Endangered Species Act Biological Opinion are employed 
by companies that are contracted by entities conducting the activities 
(e.g., action agencies, private sector companies in construction, 
geophysical surveys, or other). The contracting companies employing the 
protected species observers are responsible for ensuring that any 
harassment or safety issues are mitigated. Protected species observers 
are similar to fishery observers as both are employed by private 
companies, however the Magnuson-Stevens Act authorizes criminal, as 
well as civil administrative, penalties for harassing, forcibly 
assaulting, opposing, or intimidating a fishery observer or interfering 
with their duties. Those penalties are not available under the Marine 
Mammal Protection Act and Endangered Species Act. However, other local, 
state, and Federal laws regarding assault and harassment may apply.

    Question 4. An important component of an anti-harassment program is 
holding managers and supervisors accountable when they do not take 
appropriate steps when an incident of harassment or assault is 
reported. How does NOAA hold managers and supervisors accountable in 
this regard?

    Answer. NOAA's policy explicitly states in its Sexual Assault/
Sexual Harassment (SASH) policy (NAO 202-1106) that all managers are 
responsible for reporting any incident of SASH and taking appropriate 
actions to reduce SASH within the agency. In the past, NOAA has 
disciplined and terminated supervisors/managers who have not adhered to 
its policy. Currently, all SASH-related discipline and incidents are 
tracked monthly through the SASH council, where higher-level leadership 
and stakeholders search for trends and ensure that all employees, 
including managers and supervisors, are held accountable.

    Question 5. During last week's hearing, when asked if NOAA plans to 
do a workplace environment survey, you said NOAA had included two 
surveys in a new online training module. I ask that you please provide 
those survey questions to this Committee. And I ask again: Does NOAA 
intend to deploy an agency-wide survey? If so, how could you ensure 
that contractors and affiliates, such as fisheries observers, protected 
and endangered species observers, and fishery management council 
members, executive and administrative staff would receive this survey? 
Could you describe the challenges you anticipate from conducting a 
comprehensive agency-wide workplace environment survey?

    Answer. NOAA intends to complete an agency-wide targeted assessment 
on SASH in calendar year 2021, including contractors and affiliates, 
and we will share the survey questions with this Committee when they 
are final. For entities with whom NOAA has a contractual relationship, 
NOAA's contract agreements include the requirement that its contractors 
and affiliates be made aware of and adhere to NOAA's SASH policy. We 
are working on expanding SASH training requirements for our contractors 
and affiliates as well. For entities with whom NOAA does not have a 
contractual relationship (e.g., fisheries observers and protected 
species observers) the contracting companies employing the protected 
species observers are responsible for ensuring that any harassment or 
safety issues are mitigated. Because contractors and affiliates are not 
Federal employees, surveying them presents a challenge for any Federal 
agency. NOAA will procure a contractor who specializes in culture 
assessments to implement the survey.

                  Questions Submitted by Rep. Huffman
    Question 1. What does NOAA consider its authority or responsibility 
to provide resources and protection for harassment and prevention 
response to fisheries observers?

    Answer. NOAA prioritizes the safety of our observers. NOAA's Office 
of Law Enforcement (OLE) has staff in each division who focus on 
observer safety. Each year, OLE personnel participate in outreach and 
education in regard to observer safety with fishermen, observers, 
stakeholders, and both state and Federal partners. During observers 
training, OLE provides safety training to show observers how to report 
inappropriate activity and behavior and the importance of doing so. The 
observers are shown examples of unacceptable behavior and taught what 
steps they can take if something inappropriate happens during a 
scheduled fishing trip. Throughout the year, OLE makes efforts so 
observers feel comfortable with reporting issues to their supervisors 
and OLE. OLE also talks to fishing vessel crews, captains, and fishing 
company managers so they understand what constitutes assault and 
harassment of observers. OLE also informs them of the potential 
penalties for not providing a safe environment for observers, both at 
sea and at shore-side processing facilities.
    However, the protected resources observers required as part of 
mitigation or terms and conditions of a Marine Mammal Protection Act 
Incidental Take Authorization or Endangered Species Act Biological 
Opinion are employed by companies that are contracted by entities 
conducting the activities (e.g., action agencies, private sector 
companies in construction, geophysical surveys, or other). The 
contracting companies employing the protected species observers are 
responsible for ensuring that any harassment or safety issues are 
mitigated. Protected species observers are similar to fishery observers 
as both are employed by private companies, however the Magnuson-Stevens 
Act authorizes criminal, as well as civil administrative, penalties for 
harassing, forcibly assaulting, opposing, or intimidating a fishery 
observer or interfering with their duties. While those penalties are 
not available under the Marine Mammal Protection Act and Endangered 
Species Act, other local, state, and Federal laws regarding assault and 
harassment may apply.
    Question 2. NOAA's budget request for Fiscal Year 2021 requests 
funds to develop and maintain a workplace violence database, which the 
Committee fully supports. Please describe how you could use this 
database to track data on disciplinary corrective actions and ongoing 
investigations and how it could be used to identify trends in offenses.

    Answer. A centralized workplace violence database enables 
stakeholders to report their data in a timely manner. NOAA is looking 
at various companies that specialize specifically in internal 
investigations similar to NOAA's. This database would aggregate length 
of time of cases, case outcome, discipline data including corrective 
actions. Aggregating this data would allow accurate and timely trend 
analysis. Reports generated from the centralized database would be 
presented monthly at the NOAA SASH council.

                                 ______
                                 

    Mr. Cox. Thank you, Dr. Jacobs.
    The Chair will now recognize Ms. Julie Dale for 5 minutes.

  STATEMENT OF JULIE DALE, PREVENTION AND EDUCATION MANAGER, 
    STANDING TOGETHER AGAINST RAPE, INC., ANCHORAGE, ALASKA

    Ms. Dale. Thank you. Good afternoon, Chairman Cox, Miss 
Gonzalez-Colon, Representative Huffman, and other members of 
the Subcommittee. Thank you for the opportunity to share with 
you the issues facing NOAA observers, and how our organization, 
Standing Together Against Rape (STAR), supports them.
    My name is Julie Dale. I have been working in the sexual 
violence prevention field at STAR in Anchorage, Alaska for over 
7 years, and I have been working closely with observers and 
NOAA for over 4 years.
    While the connection between the work a rape crisis center 
in Alaska does and the work NOAA does might not be immediately 
apparent, the reality is that Alaska has the highest rates of 
sexual violence in the Nation. These incredibly high rates are 
not confined to our landmass, but impact our offshore 
environments, as well.
    As a lifelong Alaskan, I greatly value the work observers 
do to help preserve our fishing industry in my home state, as 
well as across the Nation. And I am passionate about helping 
our fishing industry be as safe and sustainable as possible.
    As you may be aware, NOAA observers are professionally 
trained biological scientists gathering firsthand data on what 
is caught and thrown back, which supports science, 
conservation, and management activities. This data is used to 
monitor fisheries, assess fish populations, set fishing quotas, 
and inform management. Observers also support compliance with 
fishing and safety regulations. It is a necessary role for 
scientists in our fishing industry if we hope to maintain a 
fishing industry at all.
    Commercial fishing is an inherently dangerous job. Slippery 
decks, heavy equipment, isolation, and rough seas all 
contribute to the perils observers and fish industry workers 
face at sea.
    In addition to the job being inherently dangerous, 
observers are immediately placed in a vulnerable position the 
moment they step onto a vessel, as fishing crews often view an 
observer as an outsider or a snitch.
    An observer's vulnerable position becomes even more 
perilous as it is combined with being isolated far from shore 
for extended periods of time without access to communication 
with individuals off of the boat, and potentially witnessing 
fishing violations that the vessel crew does not want to be 
reported. This can, and does, result in observers being 
pressured, harassed, threatened, and physically and/or sexually 
assaulted to either interfere or prevent them from completing 
their job.
    While providing training, I have received firsthand 
examples from observers of how this harassment starts. These 
examples include, but are not limited to, being told to shuck 
scallops, clean the slime line, measure crab, or even cook for 
the crew. These duties are not part of the observer's job, and 
the intent is to remove them from their assigned position so 
they are not able to perform their job functions. Therein lies 
the power and control. If an observer refuses to participate in 
these behaviors, they are not part of the team; and if they do 
participate, the crew then can hold over their heads that they 
were not at their assigned job.
    These harmful behaviors can escalate quickly and result in 
the observers not having access to food, sleeping quarters, 
bathroom facilities, or the captain's deck. All of these 
tactics hold power and control over the observers, which 
contributes to the sexual violence experienced by these 
individuals.
    There is good work being done, but it is not enough. There 
are some real barriers to observers reporting and seeking help. 
These can include gaining a reputation for being a narc, not 
wanting to worry their friends and family, not sure if it is a 
reportable offense, having to go back out on the same boat with 
the same crew again, and being blacklisted from the industry, 
not able to do the work for which they are so passionate.
    The response observers receive when reporting these 
behaviors is very disheartening, and ranges from, ``Well, it is 
just hazing,'' ``What do you expect is going to happen on a 
fishing boat,'' ``I bet they thought you were flirting with 
them,'' ``We told you not to wear yoga pants,'' and, ``Well, it 
happened to me too and I made it through just fine. You will 
get over it.''
    We need to create safe environments for our observers and 
prevent further harm from happening by providing consistent 
prevention training for industry personnel, enacting 
enforceable legislation that holds individuals who harm 
accountable, and changing the norms from those that are 
tolerant of sexual violence to supporting and believing 
survivors.
    Thank you for the opportunity to appear today. I will be 
happy to respond to questions.

    [The prepared statement of Ms. Dale follows:]
  Prepared Statement of Julie Dale McNeese, Prevention and Education 
           Manager for Standing Together Against Rape (STAR)
    Chairman TJ Cox, Ranking Member Louie Gohmert, and the other 
members of the Subcommittee, thank you for the opportunity to share 
with you the issues facing NOAA Observers and how our organization, 
Standing Together Against Rape (STAR), supports them.
    My name is Julie Dale. I have been working in the sexual violence 
prevention field at STAR in Anchorage, Alaska, for over 7 years and 
have been working closely with Observers and NOAA for over 4 years. 
While the connection between the work a rape crisis center in Alaska 
does and the work NOAA does might not be immediately apparent, the 
reality is that Alaska has the highest rates of sexual violence in the 
Nation, these incredibly high rates are not confined to our landmass 
but impact our offshore environments as well.
    As a lifelong Alaskan, I greatly value the work observers do to 
help preserve our fishing industry in my home state as well as across 
the Nation and am passionate about helping our fishing industries be as 
safe and sustainable as possible.
    As you may be aware, NOAA Observers are professionally trained 
biological scientists gathering firsthand data on what is caught and 
thrown back, which supports science, conservation, and management 
activities. This data is used to monitor fisheries, assess fish 
populations, set fishing quotas, and inform management. Observers also 
support compliance with fishing and safety regulations. It is a 
necessary role for scientists in our fishing industry if we hope to 
maintain a fishing industry at all.
    Commercial fishing is an inherently dangerous job, slippery decks, 
heavy equipment, isolation, and rough seas all contribute to the perils 
observers, and fish industry workers face at sea.
    In addition to the job being inherently dangerous, Observers are 
immediately placed in a vulnerable position the moment they step onto a 
vessel as fishing crews often view an Observer as an ``outsider'' or 
``snitch.'' Observers vulnerable position becomes even more perilous as 
it is combined with being isolated, far from shore, for extended 
periods time, without access to communication with individuals off the 
boat, and potentially witnessing fishing violations that the vessel 
crew does not want to be reported. This can, and does, result in 
observers being pressured, harassed, threatened, and physically and/or 
sexually assaulted to either interfere or prevent them from completing 
their job.
    While providing training, I have received firsthand examples from 
Observers of how this harassment starts. These examples include, but 
are not limited to, being told to shuck scallops, clean the slime line, 
measure crab, or cook for the crew. These duties are not part of the 
Observers job, and the intent is to remove them from their assigned 
position, so they are not able to perform their job functions. Therein 
lies the power and control. If an Observer refuses to participate in 
these behaviors, they are ``not part of the team,'' and if they do 
participate, the crew then can hold over their heads that they were not 
at their assigned job. These harmful behaviors can escalate quickly and 
result in the Observers not having access to food, sleeping quarters, 
bathroom facilities, or the captain's deck. These tactics hold power 
and control over the Observers, which contributes to the sexual 
violence experienced by these individuals.
    There is good work being done, but it is just not enough, there are 
some real barriers to Observers reporting and seeking help, and these 
can include, gaining a reputation for being a narc, not wanting to 
worry friends and family, not sure if it is a reportable offense, 
having to go back out on the same boat with the same crew AGAIN, and 
being blacklisted from the industry, not able to do the work for which 
they are so passionate.
    The response Observers receive when reporting these behaviors is 
very disheartening and range from ``well its just hazing,'' ``what do 
you expect is going to happen on a fishing boat,'' ``I bet they thought 
you were flirting with them,'' ``I told you not to wear yoga pants,'' 
and ``Well it happened to me too, and I made it through just fine, you 
will get over it.''
    We need to create safe environments for our Observers and prevent 
further harm from happening by providing consistent prevention training 
for industry personnel, enacting enforceable legislation that holds 
individuals who harm accountable, and changing the norms from those 
that are tolerant of sexual violence to supporting and believing 
survivors.
    Again, thank you for the opportunity to appear today. I would be 
happy to respond to questions.

                                 ______
                                 

    Mr. Cox. Thank you, Ms. Dale.
    The Chair will now recognize Ms. Linda Seabrook for 5 
minutes.
    Please go ahead.

  STATEMENT OF LINDA SEABROOK, GENERAL COUNSEL AND DIRECTOR, 
    WORKPLACE SAFETY AND EQUITY, FUTURES WITHOUT VIOLENCE, 
                         WASHINGTON, DC

    Ms. Seabrook. Thank you, Chairman Cox, Ranking Member 
Gonzalez-Colon, and Representative Huffman. Good afternoon.
    For more than 30 years, Futures Without Violence (FUTURES) 
has led the way in creating innovative solutions to end 
violence against women and children around the world, and to 
help communities heal and thrive. On behalf of myself and 
FUTURES, I would like to thank Chairman Cox and this 
Subcommittee for inviting me to speak with you today.
    At FUTURES, we are honored to lead the only national 
resource center dedicated to addressing the impacts of gender-
based violence and harassment on workers and the workplace. 
Authorized by the Violence Against Women Act and funded through 
DOJ's Office on Violence Against Women, the National Resource 
Center on Workplace Responses helps employers, employees, 
workplace stakeholders, and others improve responses to 
violence and harassment.
    Most importantly for our time here today, the Resource 
Center serves as the technical assistance provider to executive 
branch agencies in crafting and implementing policies and 
programs designed to prevent and respond to such harassment and 
violence impacting the wide range of workplaces and workers who 
serve the public good.
    We also focus our efforts on the Nation's most vulnerable 
workers, such as those in agriculture, hotel, and janitorial 
industries. These workers, who often perform their work in 
isolated environments, are women or members of otherwise 
marginalized groups, are paid low wages, and often perform 
their jobs through subcontracted work arrangements, experience 
the highest rates of sexual violence in the workplace.
    Sexual violence and harassment, no matter where it occurs, 
is primarily about power. Thus, the process of creating 
effective responses to and preventing this conduct must seek to 
leverage the collective power of all in the workplace to bring 
about necessary cultural change, and democratize responsibility 
for creating an environment that promotes respect, equity, 
dignity, and thereby greater safety and support.
    Workers know how, where, to whom, by whom, and under what 
circumstances sexual harassment occurs. Therefore, they must be 
intimately involved in the policies, procedures, and processes 
intended to protect them. At FUTURES, we engage in 
collaboration to help build workplace-appropriate responses and 
interventions that promote prevention and culture change.
    One such collaboration was with the Coalition of Immokalee 
Workers. With FUTURES' expertise in sexual violence prevention, 
and using certified Sunripe Certified Brands as a pilot site 
employer, we collectively developed a worker-engaged and 
workplace-based education and response program as a companion 
to CIW's Fair Food Program, a program which has effectively 
addressed the long-standing scourge of sexual violence in the 
nation's fields and farms.
    Some of the working environments at NOAA have similar 
factors that account for vulnerability to experiencing sexual 
harassment on the job as the agricultural industry. For 
example, fishery observers, who are often recent college 
graduates without the gravitas of experience, working in 
isolated, remote working environments on behalf of an agency 
that is not necessarily their employer, are in a situation that 
makes them vulnerable to experiencing sexual violence and 
harassment.
    I have been provided with and have reviewed NOAH's SASH 
policy, which is thorough and an excellent first step. I am 
happy to address specific concerns about this policy, but what 
I would like to impress upon you today is how important it is 
for the process of implementation to incorporate worker input 
and participation. Doing so provides the means for creating 
that shared responsibility and collective engagement for 
changing culture that we know brings a policy to life.
    What numerous studies have revealed, and what I can also 
speak to as a survivor of sexual harassment, is that most 
survivors do not want to report or avail themselves of the 
legal or administrative remedies to address this conduct. They 
just want it to stop, and not happen in the first place to them 
or anyone else. So, while policies that provide greater 
protections and ensure greater accountability are much needed 
and most welcome, we must also seek to engage workers, 
survivors, and management to work together to change the 
culture that facilitates this conduct in the first place.
    On the Resource Center website, on the sexual harassment 
subpage, we have many resources that I am happy to discuss 
later on. But I wanted to leave you with the premise that 
workers, and especially survivors, should be front and center 
in the implementation of these policies and practices. 
Incorporating trauma-informed and survivor-centered approaches 
in investigations, trainings, practices, and protocols provide 
greater assurance that such policies will be engaged in the 
first place, and engenders trust throughout the workplace to 
promote collective responsibility for the kind of workplace 
every worker deserves. Thank you.

    [The prepared statement of Ms. Seabrook follows:]
 Prepared Statement of Linda A. Seabrook, General Counsel and Director 
         of Workplace Safety & Equity, Futures Without Violence
    Good afternoon, my name is Linda Seabrook and I am General Counsel 
and Director of Workplace Safety & Equity for the national non-profit 
organization, Futures Without Violence (FUTURES). For more than 30 
years, FUTURES has led the way and set the pace in creating innovative 
solutions to ending violence against women and children, and improving 
responses to violence and abuse impacting individuals, families, and 
communities.
    On behalf of myself and FUTURES, I would like to thank the 
Committee on Natural Resources, Subcommittee on Oversight and 
Investigations, for inviting me to speak at this hearing on Sexual 
Harassment at the National Oceanic and Atmospheric Administration.
                            scope of problem
    Countless women and other vulnerable workers have shared their 
stories of workplace sexual harassment and violence and continue to do 
so. What we have seen from these stories bravely shared, is that sexual 
harassment and violence is and continues to be a pervasive problem in 
the world of work.
    According to a 2016 Equal Employment Opportunity Commission study, 
up to 85 percent of women report that they have experienced workplace 
sexual harassment.\1\ A study detailed in an article in Gender and 
Society entitled ``The Economic and Career Effects of Sexual Harassment 
on Working Women,'' revealed that women who are sexually harassed are 
six times more likely to change jobs,\2\ and a National Council for 
Research on Women study found that women are nine times more likely to 
quit, and three times more likely to lose their jobs because of 
experiencing workplace sexual harassment and violence.\3\ And these 
statistics are more acute for women of color. This should be of grave 
concern as it leads to decreased employment opportunities, decreased 
economic stability for women and their families, and impacts the 
efficacy and mission of the organizations, businesses, and agencies in 
which they work.
---------------------------------------------------------------------------
    \1\ Feldblum, Chai, and Victoria Lipnic. 2016. ``EEOC Select Task 
Force on the Study of Harassment in the Workplace, Report of Co-Chairs 
Chai R. Feldblum and Victoria A. Lipnic.'' https://www.eeoc.gov/eeoc/
task_force/harassment/.
    \2\ McLaughlin, Heather, Christopher Uggen, and Amy Blackstone. 
2017. ``The Economic and Career Effects of Sexual Harassment on Working 
Women.'' Gender & Society 31(3): 333-58. https://doi.org/10.1177/
0891243217704631.
    \3\ National Council for Research on Women. 1994. ``The Webb 
Report.'' The Webb Report, June.
---------------------------------------------------------------------------
                   national workplace resource center
    At FUTURES, we are honored to lead the only national resource 
center dedicated to addressing the impacts of sexual harassment and 
violence, domestic violence, and stalking on workers and the workplace. 
Authorized by the Violence Against Women Act, and funded through the 
U.S. Department of Justice's Office on Violence Against Women, the 
National Resource Center on Workplace Responses (Workplace Resource 
Center) helps employers, employees, Federal agencies, and other 
workplace stakeholders by providing tools, resources, promising 
practices, training and education to prevent, as well as improve 
responses to, workplace sexual violence and harassment. Most 
importantly for our time here today, the National Resource Center 
serves as the technical assistance provider to executive branch 
agencies in crafting and implementing policies and programs designed to 
prevent and respond to domestic violence, sexual violence and 
harassment, and stalking impacting the wide range of workplaces and 
workers who serve the public good.
    Through the Workplace Resource Center, we focus our efforts on the 
Nation's most vulnerable workers, such as those in agriculture, hotel, 
and the restaurant and janitorial services industries. These workers, 
who often perform their work in isolated environments, are largely 
women of color, LGBTQ or otherwise marginalized, are paid low wages, 
and perform their jobs through subcontracted work arrangements (which 
weakens the chain of accountability), experience the highest rates of 
workplace sexual violence.
    Sexual violence and harassment, no matter where it occurs, is 
primarily about power and abuse of power, and not all that much about 
sexual desire. Thus the process of creating effective responses to and 
preventing sexual harassment in the workplace must seek to leverage the 
collective power of all in the workplace to bring about necessary 
cultural change, and democratize responsibility for creating a work 
environment that promotes respect, dignity, equity, and thereby, 
greater safety and support. Workers know how, where, to whom, by whom, 
and under what circumstances sexual harassment occurs, therefore they 
must be intimately involved in the policies, procedures, and processes 
intended to protect them from such conduct.
    At FUTURES, we partner with survivors, workers, employers, unions, 
workers' rights and antiviolence advocates to build workplace-
appropriate responses and interventions that promote prevention and 
culture change. One such collaboration centered around the work of our 
partners and friends at the Coalition of Immokalee Workers, a human 
rights organization based in Immokalee, Florida that created the Fair 
Food Program, an innovative and effective partnership among farmers, 
farmworkers, and retail food companies that ensures those who harvest 
our food are able to do so without being exposed to sexual harassment 
and violence in our Nation's fields and farms. With FUTURES' expertise 
in sexual harassment and violence prevention, and using Sunripe 
Certified Brands as a pilot site employer, we collectively developed a 
survivor and worker-led workplace-based education, awareness, resource, 
and response program as a companion to the consumer-powered and worker-
driven Fair Food Program, which has been called the ``best workplace 
monitoring program'' by the New York Times and has effectively 
addressed the long-standing scourge of sexual violence in the fields 
that has long plagued our agricultural industry.
                  addressing sexual harassment at noaa
    Some of the working environments at NOAA have similar factors that 
account for vulnerability to experiencing sexual harassment on the job 
as the agricultural industry. For example, fishery observers are young 
professionals, often recent college graduates, who work pursuant to a 
subcontract. They board private fishing boats and vessels as the only 
NOAA-affiliated person on that vessel, which are at sea, many miles 
from shore. A recent college graduate, new to such a workforce and 
without the gravitas of experience, working in an isolated, remote 
working environment, on behalf of an agency that is not their employer, 
is in a situation that makes them extremely vulnerable to experiencing 
sexual violence and harassment.
    I have been provided with and reviewed NOAA's Sexual Assault and 
Sexual Harassment Prevention and Response Policy, which is a thoughtful 
and thorough policy, and excellent first step. I am happy to address 
specific questions about the policy when appropriate, but what I would 
like to impress upon you today is how important it is for the process 
of implementation to incorporate worker input and participation. Doing 
so provides the means for creating that shared responsibility and 
collective engagement for changing culture that we know brings a policy 
to life and moves a workplace toward prevention and culture change. 
What numerous studies have revealed, and what I can also speak to 
anecdotally as someone who has experienced sexual harassment in my work 
life, is that most targets of sexual harassment do not want to report, 
complain, or avail themselves of the legal or administrative processes 
to address their experiences of sexual harassment and violence--they 
just want this behavior to stop, and not happen again, to themselves or 
anyone else. So while policies that provide greater protections and 
ensure greater accountability are much needed and most welcome, we must 
also engage employees, bystanders, survivors, and supervisors to work 
together to change the culture that facilitates workplace sexual 
harassment and violence in the first place.
    Available on the Sexual Harassment and Violence subpage of the 
Workplace Resource Center website, www.workplacesrespond.org/
harassment, you will find a number of resources that can guide any 
agency or organization through the process of collective engagement in 
changing workplace culture to one that promotes greater dignity, 
respect, collective responsibility, and safety, to include a model 
climate survey and code of conduct, a workplace ``culture walk,'' 
sample education and awareness materials, as well as myriad other 
resources and tools to effect necessary culture change.
                               conclusion
    Most importantly, the voices and experiences of survivors of 
workplace sexual harassment and violence need to be front-and-center in 
any solutions and in the implementation of any policies and practices 
to address this problem. Trauma-informed and survivor-centered 
approaches in investigations, trainings, practices and protocols 
provide greater assurance that such policies will be engaged in the 
first place, and engenders trust throughout the workplace to promote 
collective responsibility for the kind of workplace every worker 
deserves.
    I thank you again for allowing me the opportunity to be with you 
today, and am happy to respond to any questions you may have.

                                 ______
                                 

 Questions Submitted for the Record to Linda Seabrook, General Council 
  and Director of Workplace Safety & Equity, Futures Without Violence
             Questions Submitted by Representative McEachin
    Question 1. Could you provide your analysis of NOAA's current SASH 
policy, as well as suggested improvements?

    Answer. As stated in my testimony, the SASH policy is an excellent 
first step, and thoughtful and thorough policy. It integrates many best 
practices recommended by the FUTURES-led National Resource Center on 
Workplace Responses (Workplace Resource Center), including:

    <bullet> A clear purpose statement that articulates the workplace 
            culture that NOAA seeks to create and that establishes 
            broad goals for the policy;

    <bullet> The scope of who, where, and what types of conduct are 
            covered by the policy;

    <bullet> Legally-sufficient definitions and examples of sexual 
            harassment and sexual assault, using accessible 
            terminology;

    <bullet> Prioritizing and centering prevention, training, and 
            awareness over discipline, which is a meaningful indication 
            of NOAA's values;

    <bullet> Multiple channels for reporting potential prohibited 
            conduct;

    <bullet> Clear distinctions between the SASH policy and EEO 
            processes;

    <bullet> Centering the immediate safety and resource referral needs 
            of an employee who makes a report;

    <bullet> A clear statement of the limitations of qualified 
            confidentiality;

    <bullet> The creation of advocacy and liaison positions, as well as 
            a list of additional resources, for the benefit of 
            employees who may need assistance;

    <bullet> A prerogative to avoid transferring employees who make a 
            report if it is not their wish to be transferred;

    <bullet> Clear and enforceable protections against retaliation; and

    <bullet> Regular incident reporting procedures to track the impact 
            of the policy and promote accountability.

    Suggested improvements include the following:

    As stated in my testimony before the Subcommittee, the provision 
``swift reporting allows law enforcement authorities and the Agency to 
take measures . . .'' as detailed in Section 6.01 might discourage a 
target of sexual harassment or assault from reporting conduct because 
they may not want law enforcement to become involved. For many 
survivors, the criminal justice system does not instill confidence, and 
the fear of being responsible for a coworker or supervisor's potential 
interaction with the criminal justice system may also inhibit a target 
from reporting. Instead, we suggest removing ``law enforcement 
authorities'' and leaving the remaining language. ``Appropriate 
measures'' may indeed include law enforcement, but the policy details 
in subsequent sections what circumstances might require the involvement 
of law enforcement. We would recommend, however, that the policy 
provide for a conversation with the target of the harassment when law 
enforcement must be called, or if discretionary, if they want law 
enforcement to be involved.
    With respect to Section 9.04 ``Reassignment of an Alleged 
Perpetrator,'' we are concerned by the lack of guidance on when or how 
this might occur or be appropriate and would recommend revisiting and 
expanding on this provision to provide clearer guidance on when such a 
reassignment may be justified as well as the process for doing so. The 
victim's safety should be prioritized in any determination of whether 
reassignment is appropriate and if appropriate, where the perpetrator 
is reassigned.
    Finally, the policy does not appear to contain a provision for 
keeping a target/victim who makes a report abreast of the status of 
their report at regular intervals, where feasible and appropriate. We 
would recommend the incorporation of practices that provide the most 
information as the law and agency regulations allow.

    Question 2. In your testimony, you mentioned that an important 
strategy to addressing sexual harassment in an organization is to 
involve workers, including former victims and survivors of harassment, 
in the solutions. In other words, organizations should `democratize' 
the process for addressing sexual harassment and changing the culture 
in an organization. What are some of the most effective ways an 
organization can involve workers in addressing sexual harassment? How 
can organizations keep employees engaged in the process to ensure that 
positive progress is continuing to be made?

    Answer. Policies created from the top down without a robust plan 
for implementation that involves the participation of representatives 
of workers at all levels, including former or current targets of sexual 
harassment, may drive compliance, but it will be temporary. Workers 
need to feel a stake in the process in order to have trust in policies 
and a collective responsibility for outcomes. Involving workers in the 
development of education and practices that promote compliance with the 
policy creates buy-in and fosters culture change and values alignment.
    Our first recommendation would be for NOAA to conduct an agency-
wide climate survey, which, in addition to including all full- and 
part-time employees, should include contractors, interns, and others 
who perform consistent work on behalf of NOAA. Each organization has 
its own culture, gaps, and needs. A well-executed workplace climate 
survey process lays the foundation for a tailored response and 
prevention program by identifying the following: the organizational 
risk factors that underlie sexual harassment and violence; the needs of 
employees experiencing workplace sexual harassment on the job; the 
obstacles to worker participation in accountability measures; current 
gaps in response to such conduct; and, the level of worker confidence 
in leadership and current policies and procedures.
    To encourage candor, the climate survey should be conducted by an 
outside entity, and respondents should be assured that their responses 
cannot be traced back to them and will be incorporated into a 
comprehensive report, rather than individualized. The survey can 
include a call for volunteers to serve as employee members of a 
``Workplace Values Team,'' that will be responsible for review and 
analysis of the final comprehensive report and serve as an advisory 
group to offer suggestions for necessary policy changes and closing 
gaps in response, as well as engage in an ongoing collaborative process 
for developing shared and representative workplace expectations and 
values.
    The Workplace Values Team can advise and direct the process for 
implementation of the SASH policy, including any recommended 
improvements, and help with the creation of an educational program by 
providing realistic training scenarios, strategies for bystander 
intervention, and a plan for continued worker engagement. Finally, the 
Workplace Values Team, if trained appropriately, can serve as peer 
counselors and educators to provide worker-to-worker support.

    We hope that the foregoing proves helpful to NOAA as they continue 
to improve their response to sexual harassment and violence. Please 
know the Workplace Resource Center is available for any technical 
assistance or guidance needed to assist NOAA in this process. We 
appreciate the thoughtful questions provided by Representative 
McEachin, and thank you and the Subcommittee once again for your 
commitment to ensuring that NOAA workers can work free from sexual 
harassment and violence on the job.

                                 ______
                                 

    Mr. Cox. Thank you. Now we can entertain some questions.
    Kind of the first thing is, Ms. Seabrook, when you are 
describing this culture of intimidation, harassment, and that 
sometimes the observers are essentially made to believe that it 
is just part of the job, you have described some of the things 
that were being done to or should be done to shift that 
culture. I would like you to provide a little more elaboration 
or color on how NOAA has a role in changing that culture.
    And, certainly, Dr. Jacobs, a little bit more color on some 
of the things that you had mentioned that you are doing to 
bring about that shift.
    Ms. Seabrook. Yes. It is interesting, there was a study 
that was done by the Restaurant Opportunities Centers United, 
where they surveyed restaurant workers about sexual harassment. 
When they just asked the workers, ``Have you ever been sexually 
harassed,'' the rates weren't actually that high. But then, 
once they started to describe what sexual harassment actually 
was, they saw significant rates of sexual harassment as 
identified.
    So, when you say that it is just part of the job, that is 
often the experience of many workers today, whether it is in 
the agricultural industry, the retail industry, the restaurant 
industry, or at NOAA.
    I think what is most important is to have, again, that kind 
of collective responsibility for building the type of workplace 
in which everyone can thrive. So, it is democratizing that type 
of responsibility among the workforce and empowering bystanders 
to stand up, turning co-workers from bystanders to up-standers.
    Mr. Cox. Thank you. And Dr. Jacobs?
    Dr. Jacobs. We have been spending a lot of time, obviously, 
with this for the last 18 months. I have been spending a 
tremendous amount of time with Kelley Bonner. We have set up 
contracts for nine additional investigators. We originally only 
had one. Those were started in July 2019.
    The response time has gone from weeks down to 48 hours.
    We have a mandatory online training module that we released 
on February 5. Right now, about 40 percent of the agency has 
already completed it.
    We have stood up a SASH council in 2019 with 
representatives from around the agency.
    Hiring, obviously, as you have heard, is an issue. I have 
personally called Enterprise Services myself to get them to 
speed up on some of the hiring processes so we can get this 
staffed out.
    Obviously, training is very, very important.
    Another thing that we are working on is centralizing the 
reporting structure of the data, getting a database set up. 
That is going to help streamline how the reports are uploaded, 
and the format of them, because there is a lot of uncertainty 
and confusion around the agency about different reporting 
formats of the data, and how it is collected. So, streamlining 
that process is very important.
    We have six external contracts to help provide a foundation 
of training and education in victim services.
    These are a lot of things that we have done. Some next 
steps will be bystander intervention training, that is another 
computer module that we are going to do later this year. We 
have a SASH summit coming up this fall. We are working on 
developing and rolling out a prevention plan. I mean, 
obviously, we have a plan in place now, but we are forming it 
as we go based on what we are learning. And then really, really 
working on increasing victim advocacy services. We do plan to 
hire internal investigators. Not just having investigators as 
contractors, but having internal hires on this, I think, is 
really going to help us a lot.
    Mr. Cox. Great. Thank you. And certainly these are all 
very, very positive steps. Have we seen a shift or positive 
results really out there on the water yet?
    Any feedback from some of the observers that the culture 
has changed on this boat, or people are actually more mindful 
about what they are doing?
    Dr. Jacobs. I would say it is probably too early to tell, 
really. I mean, I have a lot of positive e-mails and feedback 
from the all-hands message I sent out with the link to the 
training module.
    In 2017, we had some numbers that came in, the law 
enforcement part of NOAA, they were collecting data, but they 
didn't know where to send it. So, those numbers didn't get 
included until 2018, so there appears to be a spike in 2018. A 
lot of those are previous years' numbers that they didn't know 
where to report. And then also, the Alaska incident got 
reported that showed up in 2018.
    So, I would say 2018 is probably anomalously high, 2019 is 
maybe too early to tell. We would expect, as we develop and 
roll out this prevention program, that the numbers may go up 
before they come down, because a lot of these victims don't 
exactly know where to report or what the proper process to take 
is. So, I wouldn't be surprised to see an increase before a 
decrease. But once the program is fully rolled out, I would 
expect to see the numbers decreasing, particularly over the 
next year or two.
    Mr. Cox. Great, fair enough. Thank you.
    The Chair will now recognize the Ranking Member for 5 
minutes.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. And thank 
you, again, all the witnesses, for waiting. I know sometimes 
when votes are called, everything gets disrupted. So, thank you 
again, and sorry about that.
    Hearing the testimonies of Dr. Jacobs and Ms. Dale, there 
is one issue that concerns me, and that is the decentralized 
system of NOAA. Having personnel in more than 600 locations, as 
you already specified, including the territories, and how 
difficult it is to work and have that kind of situation, to 
work with sexual assault and harassment. Can you elaborate 
more, Dr. Jacobs, in terms of what policies the agency pursued 
or explored today to address the risk posed by this 
decentralized system?
    And later on I am going to follow back with Ms. Dale in 
terms of the experience in Alaska and the vessels, planes, and 
ships, because coming from a territory, I know how difficult it 
is when you have employees all over without anyone there in a 
vessel to help out.
    Dr. Jacobs?
    Dr. Jacobs. Thank you for the question. Obviously, Alaska, 
being a remote region, is a challenge to get outreach, so we 
have contracted with STAR to provide victim advocacy services. 
In the Lower 48, when I was referring to centralized, it is 
more of a centralized data management and reporting structure. 
The actual victim advocates we want out in the field.
    We have six different line offices that break their 
coverage down into different regions. For compliance with the 
law, we are actually looking at dividing into north, south, 
east, and west, and then OMAO, we would have folks there, as 
well. So, the victim advocates will be in the different 
regions, but the centralized aspect is mostly going to be the 
data reporting.
    Miss Gonzalez-Colon. I mean, I think the partnership is 
great. My question to you, Dr. Jacobs, is what kind of 
information, guidelines, or policies may be brought after 
having that experience with a partnership in order to address 
these kind of issues in isolated areas?
    If we are not there yet, fine. If you are working on this, 
please keep us posted.
    Dr. Jacobs. There are a couple of things that could be very 
helpful, particularly in the Alaska region, when it comes to 
vessels. When it pertains to the Magnuson-Stevens Act, there is 
language in there that specifically references issues when they 
only occur on vessels. So, this would apply only to an observer 
on a vessel. And it would be tremendously helpful for us if the 
solution was to just remove reference to ``on a vessel,'' 
because a lot of times these issues happen at port, or at 
hotels when the ship is not actually--I mean, it even happens 
on the dock.
    There is another part in there that discusses forcibly 
intimidate, and there is a series of intimidate, assault, and 
so on after the word ``forcibly.'' And ``forcibly'' is kind of 
a hard word to define. It would be very helpful if it just said 
``intimidate'' and ``assault.''
    Miss Gonzalez-Colon. Ms. Dale?
    Ms. Dale. As an agency that is responding to victims of 
sexual violence, one of the most important things that we are 
focusing on at STAR in this partnership is the appropriate 
response when somebody discloses they have been harmed. And 
that appropriate response goes beyond legislation and beyond 
prosecution. We want to make sure that observers, regardless of 
the incident that has happened to them, are supported in being 
believed and continuing to be able to do their jobs as safely 
as possible.
    So, at our agency, we are looking at that victim support as 
our role in that partnership.
    Miss Gonzalez-Colon. Thank you.
    Dr. Jacobs, going back to you with the goals of the 
workplace program, you said that you were looking to have a 
full-time regional victim advocate embedded in all major 
regional campuses. What is the status of this effort, and if 
you need more help?
    Dr. Jacobs. We absolutely do need more help. Right now we 
have one certified and trained victim advocate. She is sitting 
right behind me. We have three others who are trained, but they 
are not certified or credentialed yet. They are in the process 
of that.
    It is kind of a two-pronged approach of staffing out and 
also bringing some investigators as FTEs. I would really love 
to hire investigators internally, rather than to have to 
contract it out, so we actually have more oversight of the 
investigators' work.
    And then, once we get the victim advocates credentialed, 
then it is really a matter of outreach and awareness, and 
making sure that the employees in the field know who to access, 
how to access them, and building that type of communication and 
understanding.
    The prevention side of it is largely the modules and the 
training. But it is how we handle these--we went from weeks 
down to 48 hours by just bringing on nine additional 
contractors for the investigation, and shortened the 
investigation time from months down to around 100 to 120 days. 
But we have a long way to go still.
    So, definitely, I would love to work with everyone here on 
trying to push this further.
    Miss Gonzalez-Colon. Thank you, Dr. Jacobs. I know my time 
has expired. We have a lot of questions, but we can submit them 
for the record.
    Mr. Cox. Thank you so much, Ranking Member.
    I am going to ask unanimous consent that the gentleperson 
from California, Representative Huffman, be allowed to sit on 
the dais and participate in today's proceedings.
    Mr. Huffman. Thank you, Mr. Chairman. And I just want to 
say, as the Chair of the Water, Oceans, and Wildlife 
Subcommittee, where we spend a lot of time talking about the 
NOAA programs, I am really grateful to you and your staff and 
your leadership in choosing to do a deeper dive into this 
subject. It is really important, and it is the human side of 
these programs that we talk about so much.
    Dr. Jacobs, I also want to thank you for being here, 
because the Commerce Department has, obviously, sent someone 
with the right scope of authority and a base of knowledge, and 
you are here answering questions.
    That is a far cry from the non-responsiveness that we get 
from the Department of the Interior, to be perfectly candid. 
They have given up sending witnesses with the right position 
and with actual knowledge to answer our questions. And it is 
good to just be having a serious conversation about a serious 
subject. This is the way real non-partisan oversight of a 
serious subject ought to go. So, I thank you for that.
    It seems to me that we all agree that the safety and well-
being of employees and those who are employed on behalf of NOAA 
should be the highest priority at the agency. And resources and 
services should be readily available and accessible to them.
    Dr. Jacobs, you have talked a bit about the Fiscal Year 
2020 budget, and some programs and some dollar figures where it 
seems to suggest a greater emphasis. But I want to focus in on 
the number of personnel, starting with how many employees and 
contractors actually work for NOAA. Do you know, off the top of 
your head, the number of employees and contractors?
    Dr. Jacobs. We have just under 12,000 FTEs, and I think 
roughly about twice that in contractors.
    Mr. Huffman. Oh, so that is even more contractors than I 
had assumed. I had thought 7,700 contractors and affiliates, so 
I think you have given an even higher number than I had.
    And I think I understood you to say that you currently have 
one full-time employee and two detailees in the Workplace 
Violence Prevention and Response Program, with two more FTEs in 
the process of being hired. Did I get that right?
    Dr. Jacobs. We have two more in the process of being hired. 
These are for the victim advocates. We also have one full-time. 
We have three more that are trained, but not credentialed. And 
then we have other contractors doing investigations.
    Mr. Huffman. OK.
    Dr. Jacobs. And then there are a lot of other people in HR 
and the like doing work on this issue.
    Mr. Huffman. Why is it taking so long to fill those 
positions?
    Dr. Jacobs. Some of it is just hiring. I mean, I am sure 
you are probably aware that we have had hiring challenges in 
the weather service and elsewhere. It is the same hiring 
process. That is a slow process. This is why I said I called 
Enterprise Services myself to try to expedite one of these 
individuals.
    The hiring process takes a while. I wasn't fully aware of 
how deep the problems were until probably a year-and-a-half 
ago. So, really focusing in on last year's budget, when we had 
about $1 million in the program, and then adding an additional 
$1.7 million this year.
    Mr. Huffman. I appreciate that. But in terms of the number 
of personnel, wouldn't you agree that the numbers we are 
talking about are not a lot to stand up a prevention and 
response program for over 12,000 employees, plus all those 
affiliates that we mentioned?
    Dr. Jacobs. Oh, yes----
    Mr. Huffman. Do you feel like that is an adequate number?
    Dr. Jacobs. No, not at all. I completely agree with you. We 
definitely need more people.
    Mr. Huffman. What would be the right number?
    Dr. Jacobs. I think we would probably have to scale up. I 
would like at least one victim advocate in the various regions.
    We also have contracts with agencies like STAR to help us 
out, as well. We have six different contracts, so we actually 
have, under contract, a lot of individuals working on this. But 
I would like to see actual hires in the agency, FTEs, working 
on this.
    Mr. Huffman. Does your Fiscal Year 2020 budget request 
reflect the staffing that would get you the number you would 
like to see?
    Dr. Jacobs. The additional $1.7--some of that would go to 
staffing, yes.
    Mr. Huffman. OK, moving on, we all know that female 
employees are disproportionately harmed by sexual harassment 
and assault, especially working in remote locations such as 
some of these fisheries assignments for observers and monitors. 
They are often the sole NOAA-affiliated employee on these 
vessels, but they are a very important part of our fishery 
management framework. It troubles me that so many observers 
have reported sexual harassment, and surely there are a lot 
more who have experienced it and not bothered to report it.
    Last question--I know I am out of time, I hope there might 
be another round--Dr. Jacobs, do you think that the resources 
and services that are available to NOAA employees are also 
available to affiliates and contractors, such as the observers 
in so many cases?
    Dr. Jacobs. They are available, but a lot of the things, 
for example, the module, are not--the training is not 
necessarily mandatory.
    So, when some of the fisheries--the observer program, when 
they do go through training, it is a couple-week-long course, 
and there are a couple hours on SASH. But when it comes to 
these modules and other things, we don't necessarily have the 
same authorities with our contractors that we do the FTEs----
    Mr. Huffman. Do you think they know those resources are 
available to them?
    Dr. Jacobs. Well, probably not. We are in the process of 
trying to make them more aware of this, so this is part of the 
awareness and outreach that we are doing.
    Mr. Huffman. I am out of time, Mr. Chair, but thank you.
    Mr. Cox. Thank you. And we will have subsequent rounds, as 
well.
    Dr. Jacobs, as I mentioned in my earlier statement, sexual 
harassment is certainly not a problem that is just limited to 
NOAA, and in a previous hearing we invited the Department of 
the Interior to visit to discuss their issues with sexual 
harassment and how they were addressing that.
    One of the things that helped Interior better understand 
how to best address their problem was a department-wide climate 
survey that the Obama administration had administered in early 
2017. And the survey gave the Department really invaluable 
insight into the different kinds of harassment that was 
occurring, whether or not the victims had reported that 
harassment, and why they chose to report it or not.
    The survey also showed that while harassment was an issue 
across the Department, there were nuances that differentiated 
the individual bureaus within the Department. Having that 
information helped each bureau draft and implement their own 
tailored action plans. And given the information of that 
survey, does NOAA have plans in place to conduct an agency-wide 
workplace environment survey?
    And if they did or didn't, what are the challenges in doing 
that?
    Dr. Jacobs. I am sure we will do additional surveys. But, 
as part of the training module that I released on February 7, 
the beginning of the module has a survey in it asking a lot of 
questions about not just your perception of your workplace 
environment, but do you feel like you know where to go, do you 
know what to do? And then, at the end of the training session, 
there is an additional survey.
    I would expect that the results of those surveys, after the 
training module is completed, will give us a lot of 
information, and we will use that to go forward to see when and 
where we need to do additional surveys.
    Mr. Cox. Great, and thank you. And back to you, in your 
latest report to Congress--which we thank you so much for 
delivering this week--it shows up that the fisheries observer 
program is in dire need of support to prevent and respond to 
assault and harassment of observers, in general.
    As we have heard today, observers are in charge of making 
sure that fishing vessels and crews are in compliance with 
fishing regulations. And, in that sense, their work can 
directly impact how profitable a given fishing trip is for the 
crew. For example, observers are responsible for making sure 
certain fishing quotas aren't exceeded. And, as you can 
imagine, this can put them in a potentially precarious, 
unwelcome position on the boat.
    We have received written statements from observers, and 
they describe some of these harassments and threats. In fact, 
in one instance, a fellow was on a fishing vessel in the South 
Pacific. After refusing to lie about how much tuna the crew 
caught, he was harassed and put in an environment of hostility 
and fear for his life. And, certainly, after he reported this 
and experiences of reporting other violations, including 
illegal dumping, there is no question that these observers need 
resources and support to help them navigate these potentially 
dangerous situations.
    I think in your testimony you stated that the regional 
observer programs are responsible for providing these 
resources. Does this mean that observers in every region 
receive identical training services and communication devices, 
and that all of those are identical to what was forwarded to 
NOAA employees?
    Dr. Jacobs. They would have access to the same thing that 
the NOAA employees have. In addition to that, the Office of Law 
Enforcement provides a tremendous amount of outreach, 
education, and compliance assistance.
    That said, because of these vessels, sometimes they are in 
waters that are under Coast Guard jurisdiction or even beyond. 
Really, the only leverage we have is whether or not we allow an 
observer on the boat. If the observer is not on the boat, the 
boat can't go fish, because of the quotas. So, we do have some 
leverage with respect to actual observers on boats. But beyond 
that, what happens on the boat is up to the Coast Guard.
    Or, in international waters----
    Mr. Cox. Well, thanks--so let's say, for example, you have 
an observer on a boat in the Gulf of Mexico who is assaulted. 
And he wishes to report this immediately, and he is going to 
disembark the vessel. Walk me through what they can do, what 
communication device you are certain that they have on their 
person, and what NOAA's immediate follow-up responses would be.
    Dr. Jacobs. They would be equipped with a beacon. It is a 
transponder device that relays a signal to a satellite. It 
notifies the Coast Guard. The Coast Guard wouldn't know the 
type of alert. I mean, you could alert or signal this beacon 
whether the ship was sinking or the observer feels threatened. 
The Coast Guard will respond as fast as possible.
    In that case, then we are alerted. And depending on where 
they are, we get services and victim advocates in contact with 
them to figure out what the next steps would be.
    Mr. Cox. Great, thank you. I am going to recognize the 
gentleman from California once again for 5 minutes.
    Mr. Huffman. Thank you, Mr. Chair. I appreciate the extra 
time to continue this conversation.
    Ms. Dale, I wonder if you could talk a little more about 
STAR's relationship with NOAA, and how that works.
    Ms. Dale. Thank you for the question. Absolutely.
    STAR has been responding to observers being harmed on boats 
for many, many, many years as one of the leading victim 
advocacy services through Alaska. We have been providing 
training to certain portions of NOAA observers, their 
supporters. So, that looks like prevention and response 
training, making sure that they know how to respond 
appropriately if an observer is harmed, but also providing a 
multi-disciplinary, centralized response throughout Alaska if 
an observer is harmed.
    We have our marine highway system that is, literally, 
nonexistent right now. Ferries are not running. People are not 
able to get in or out of many, many hub communities. And 
Anchorage being the easiest to access, and the largest, we are 
able to provide those services to observers that are harmed as 
soon as possible. So, with us having that relationship with 
NOAA, we are able to provide the best response services.
    Mr. Huffman. Thank you. And since you began that 
partnership with NOAA--two years, did you say?
    Ms. Dale. Well, we have just gone into contract very 
recently, it just started this year.
    Mr. Huffman. OK.
    Ms. Dale. We have been providing non-contracted services, 
but we haven't tracked that since there was no contract in 
place.
    Mr. Huffman. All right, let's say--going back to when you 
first started working with NOAA, how many calls have you 
actually received from NOAA employees or contractors?
    Ms. Dale. Since we have been keeping track of that 
information, one.
    Mr. Huffman. Only one?
    Ms. Dale. Mm-hmm.
    Mr. Huffman. That strikes me as a pretty low number. Do you 
have any idea why that number would be so low?
    Ms. Dale. I have some speculations on that. The one phone 
call that we received was from the Eastern Seaboard, where I 
have been providing trainings for the last 2 years to their 
staff on how to respond appropriately. Those observers who are 
in that program know that if they report, they are going to be 
responded to appropriately, and not just looking for a law 
enforcement response.
    So, the information that is being relayed in Alaska 
currently is coming from a law enforcement individual, and they 
are very well intentioned, and very well-meaning. But the 
messenger matters whenever we are talking to observers and how 
they are going to be responded to.
    Mr. Huffman. So, no calls at all from Alaska, where you are 
actually performing this direct service work.
    Ms. Dale. Not yet.
    Mr. Huffman. Dr. Jacobs, how does NOAA communicate the 
availability of these types of services and resources to its 
observers?
    Dr. Jacobs. So, agency-wide--I send out all-hands e-mails, 
we have training. When it comes to communicating to the 
observers, the contractors that the observers work for are made 
aware of these. We also rely heavily on the Office of Law 
Enforcement, who have relationships with the fishermen, the 
contractors for the observers, and such.
    This is why I said earlier, it is a two-pronged approach. 
We have to set up the victim advocacy and how we process the 
data and deal with this issue. But we also have to set up a 
system of outreach so that the victims actually know where to 
go and what process to follow.
    Mr. Huffman. All right. And you are describing a lot of 
resources that are set up for your personnel, but are these 
resources available directly for victims, in the same way that 
STAR is?
    Dr. Jacobs. STAR is our victim advocacy in Alaska.
    Mr. Huffman. So, STAR is the answer, basically. Do you have 
plans or contracts in other regions that are like the services 
that you have contracted with for STAR?
    Dr. Jacobs. We have six different contracts. They differ, 
depending on what they do. Some are more for outreach, some are 
more for victim advocacy.
    When we are dealing with issues in the CONUS, we have one 
victim advocate, and then others that are trained that are 
awaiting certification. So, this is an ongoing process that we 
are trying to staff out.
    Mr. Huffman. All right. I appreciate the conversation with 
all of you. Clearly, NOAA is starting to make some positive 
changes. I hope this conversation and some of the information 
we have brought forward and you have shared with us underscores 
the fact that there is certainly a lot of room for improvement, 
and we look forward to working with you in that regard.
    Thanks, Mr. Chairman.
    Mr. Cox. Thank you, Representative Huffman.
    And Ms. Dale, it is clear here that fishery observers are 
in this very unique and vulnerable position by being out on 
fishing boats and vessels alone for days, weeks, and months. In 
your testimony, you mentioned some examples of tactics 
fishermen may use to intimidate and manipulate fishery 
observers early on in the fishing trip, like telling them to 
shuck scallops or clean the slime line. And, as you note, these 
behaviors sometimes escalate into sexual assault or harassment.
    Could you provide just a little bit more elaboration or 
color on these behaviors, and how they can lead to harassment 
and assault?
    Ms. Dale. Absolutely. Thank you for the question. We know 
that, ultimately, sexual harassment and sexual violence is done 
out of power and control. Those are the components that are 
always present whenever we have individuals that are 
experiencing harm. The things that we talked about, shucking 
scallops or cleaning the slime line, is often identified as 
hazing. It is an initiation that almost always happens to 
individuals whenever they step foot onto a boat.
    And like I mentioned, all of those components are meant to 
maintain power and control. That way, the observer, they are 
immediately with a lesser hand than any of the individuals, the 
fisher people on the boats. They are utilizing all of these 
various tactics to maintain leverage over those individuals so 
they are not able to report the potentially illegal fishing 
activities that are happening.
    Also, like you mentioned, that is how the individuals on 
the boats are making their money. And if they feel like they 
are not going to be bringing in the funding for themselves that 
they potentially would be with the catch, the individuals are 
experiencing severe amounts of sexual harassment and sexual 
violence.
    Mr. Cox. Thanks for that. Ms. Seabrook, Ms. Dale, and Dr. 
Jacobs, the basic question is whether or not the fishing 
community recognizes that a culture of intimidation and 
harassment isn't OK. And is there a culture shift that is 
happening at all that you see? Or is there still this culture 
of acceptance for that?
    Ms. Seabrook. I don't really know about the fishing 
industry, per se. But I know that it has happened, and there 
have been transformations in other industries.
    For example, the agricultural industry, when I was speaking 
about the Coalition of Immokalee Workers, the program that they 
put in place, that was very worker-centered and survivor-
centered, reduced the incidents of sexual harassment and 
violence in the field and farms in Immokalee, Florida from 
rampant down to zero. There has not been a single allegation of 
serious sexual harassment after implementation of the program.
    Mr. Cox. Ms. Dale?
    Ms. Dale. I have not seen a reduction in the culture of 
harm in the fishing industry. I know that it can happen. I know 
that work can be done, and it needs to be impacted not just by 
NOAA, but we need to start impacting that culture change within 
the fishing industry, as well as the providers, the 
contractors, and the captains of these boats.
    This is pervasive in the fishing industry, and we haven't 
seen a change in culture yet, a change in the norms. It can 
happen, I do believe that the work can be done. I don't believe 
that all of the fishing industry people want to harm 
individuals and continue this pervasive culture. So, with the 
work being done, and the information that is being put out, and 
the partnerships that are happening, we absolutely can see a 
change in cultural norms on the fishing boats. But it is not 
happening yet.
    Mr. Cox. OK. Dr. Jacobs?
    Dr. Jacobs. I would completely agree with that. It is a 
culture shift. It is going to be a long challenge. And I really 
hope that what we can do, as an agency, is to move in the 
direction of changing.
    I just wanted to thank you for the opportunity to come here 
today. I know that the subject matter experts are sitting 
behind me, but this was such a top priority for NOAA. So, thank 
you for having me here.
    I did want to mention that, even though we are really 
trying to face this culture change head on, and drive it in the 
direction that we want to, we also are focused on electronic 
monitoring and artificial intelligence, because I would 
envision one day that we may not need observers if we could do 
this through electronic monitoring.
    Mr. Cox. Great, thank you for that. And we do recognize the 
positive steps that NOAA has been taking with regard to this.
    And if I could follow up, it is that, as we discussed, NOAA 
is required to provide an annual report to Congress on sexual 
harassment and sexual assault incidents that are reported each 
year. And a couple of questions there.
    Are the regions submitting this data in any type of 
standardized way?
    Two, are you able to track ongoing investigations through 
the data that is submitted?
    For example, would you be able to see whether or not an 
investigation is taking an unnecessarily long time?
    And, finally, are you able to crack down on disciplinary 
corrective actions that are being taken when allegations are 
substantiated?
    Dr. Jacobs. This is the reason why we stood up the SASH 
council. I get regular tag-ups with them. I get quarterly 
reports.
    There are two things that we put in place to address this 
problem. The short answer is, historically, that data exists, 
but it is not centralized, it is not in a common format. If we 
need the information, we have to go dig it up. In some cases, 
depending on where it is collected, they may not necessarily 
know exactly where to report it.
    Over the last 12 months, we have done a much better job of 
aggregating these data sets, but this is the one reason why we 
need to stand up a database. We need to have a centralized 
database. The centralized database will force everyone to come 
up with a common format, thereby allowing us to sort through 
the numbers and get a better analysis, and keep track of the 
data in better real time.
    But the short answer is the data does exist, it is not 
centrally located, and we need a common format. Hence, the 
database.
    Mr. Cox. Great, thank you for that.
    Ms. Seabrook, it would be great if you could weigh in on 
that--is it important to have standardized data tracking across 
an organization?
    And how does that help the organization better address a 
sexual harassment problem?
    Ms. Seabrook. Yes, absolutely. Transparency is key. If 
survivors don't see that the system is working, then they will 
not have confidence in the system, and they won't engage the 
policies of the organization.
    I would also make a recommendation that in the annual 
report, if possible, there could be an annual climate survey, 
because I think what is really important--it is not just 
tracking when reports are made, but you really want to track 
who hasn't made a report and why. That is really critical and 
valuable information for the agency to gather.
    And then, also, what is critical about a climate survey is 
that it is anonymous. If employees or contractors feel that 
there is any way that that information can be tracked back to 
them, we have seen that that kind of reduces the confidence 
that they have in that climate survey.
    Mr. Cox. Thank you. And I want to touch on this, as well--
the one thing I know and have learned is an important component 
of any anti-harassment program is a way to hold managers and 
supervisors accountable when they don't take the steps they 
need to to report or follow up on incidents of harassment. Can 
you provide a little bit more--once again, elaborate on that. 
Why is it important? What are some of the ways that the agency 
can help with that regard?
    Ms. Seabrook. Sure. We have helped other Federal agencies 
with implementing their policies and practices. One 
recommendation that we have made to agencies and to other 
organizations outside of the Federal Government is to have 
adherence to the policy, as part of the annual performance 
evaluation.
    So, if the manager has a track record of ignoring reports, 
not following through with investigations, or minimizing 
reports, then that is actually reflected on the performance 
evaluation and taken into account, in terms of ratings going 
forward.
    Mr. Cox. That is a great point. Thank you very much.
    I want to thank you all again for answering the questions 
and for being here today. I think it has been very informative.
    I would like to give each of you an opportunity to describe 
whatever else you think needs to be done, and how we can ensure 
that happens.
    We can start with you, Ms. Seabrook, then Ms. Dale, then 
Dr. Jacobs.
    Ms. Seabrook. You mentioned before--or, actually, no, I 
think maybe it was Ms. Dale that mentioned before--about the 
law enforcement response. There is something within the policy 
that I noticed that may inhibit a survivor from coming forward.
    If you look at Section 6.01, it talks about employees who 
observe, or the object of sexual harassment, da da da da da, 
should report. Swift reporting allows appropriate law 
enforcement authorities and the agency to take measures to 
ensure that offensive behavior stops.
    There is always a concern to me, because we know that the 
criminal justice system is not as trauma-informed and 
responsive to the needs of survivors. It can be a very 
inhibiting factor, especially if you put that first within the 
policy.
    So, my recommendation would be to take out ``law 
enforcement'' entirely, and just leave it as ``the agency,'' 
because the agency may conclude that law enforcement is 
necessary to be reported to, but at least that gives the 
survivor some confidence in the fact that there is going to be 
a process, and it is not just going to go directly to a law 
enforcement report. That is one thing I definitely saw.
    Mr. Cox. All right, thank you.
    Ms. Dale?
    Ms. Dale. Best practices, whenever responding to an 
individual that has been harmed, is a multi-disciplinary 
approach. And to make sure that individuals and observers that 
are reporting are only having to relay their information or 
their story one time to as few people as possible, to help make 
sure that they are not re-traumatized continually, I think, is 
very, very important, and key, and can really be a part of this 
response to observers.
    Making sure that those best practices are in place, and 
supporting NOAA as an agency in the work that is being done, to 
make sure that our observers are safe.
    Mr. Cox. Great point. Thank you so much for that.
    Ms. Dale. Thank you.
    Mr. Cox. And we will conclude with Dr. Jacobs.
    Dr. Jacobs. I think I actually had the chance to cover most 
of the things, but I would like to highlight one thing that I 
haven't talked about, and that is OMAO. And I really have to 
give a tremendous amount of credit to Admiral Silah and Admiral 
Hann for really cracking down on what was going on in OMAO. And 
that really sent a message, particularly through the vessels 
and the fleet, that there is a zero tolerance with this.
    I would also look forward to working with you on how we can 
look at the language in the MSA, because this complicates the 
job of the law enforcement agency. They have a really good 
working relationship with a lot of the local observer 
community. But if they are in a situation with observers that, 
depending on where an incident happened, the observer may have 
to report it either to us or to local law enforcement 
officials, it really complicates the situation. And it also 
erodes the trust in the observers, with whether or not they 
actually think that the NOAA law enforcement is going to have 
complete control, and have their back, and be able to defend 
them, whether the incident actually happened on a vessel or in 
port.
    Basically, my job is to clear the deck, to make sure that 
everyone in NOAA feels safe and has the ability to do their 
job. This is why this is such a high priority for me. And I 
really, really appreciate your support.
    Mr. Cox. Great. Thank you, once again, to all the 
witnesses.
    Before we close, I ask for unanimous consent to enter the 
following documents into the record: a statement from the 
Association for Professional Observers; an anonymous statement 
from a NOAA scientist; a statement from fishery observer, 
Simione Cagilaba; and a statement from fishery observer, 
Patrick Carroll.
    Hearing no objection, so ordered.
    Once again, I want to thank all the witnesses for being 
here today.
    The members of the Committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing, and the hearing record will be held open for 10 
business days for these responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 4:03 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

                        Statement for the Record
                      An Anonymous NOAA Scientist
    Chairman Cox, Ranking Member Gohmert, and members of the Committee: 
thank you for inviting me to submit my testimony.
    I have been a sea-going scientist for the NOAA National Marine 
Fisheries Service for almost 20 years and have experienced sexual 
harassment at sea on multiple occasions. I've also been involved in 
other instances where my female colleagues reported being sexually 
harassed and disrespected at sea.
    In my experience, sexual harassment at sea happens in different 
ways. Young female scientists are targeted by offensive men and are 
made to feel very uncomfortable. These men target young women because 
they prey on the women's desire to perform well in the early parts of 
their career. This happened to me many times when I was in my twenties 
(about 20 years ago), to several of my coworkers in the same age range, 
and this continues to happen to my young female staff.
    Now that I am a supervisor, I have a separate meeting with my young 
female staff to review the cruise staff list, so we can discuss who can 
be seen as an ally if harassment takes place and who to never be alone 
with. The reason we work together to identify allies is because not 
everyone will stand up and provide vocal support in these situations.
    In this testimony, I would like to share my personal experience of 
at-sea harassment on a NOAA vessel, both as a survivor and as the 
supervisor of a survivor.
    I participated on my first NOAA/NMFS cruise in 2003. My job as part 
of the science team was to assist in recording net-tow information 
while our nets were in the water collecting small invertebrates and 
fishes. Each time I was on deck, I was accompanied by a deck department 
crew member who was there to operate the ship's machinery (e.g. crane 
or winch) to which our nets were attached.
    Unfortunately, this accompaniment required me to stand in a very 
small space with the deck staff person. There were many times during 
that first cruise when the two deck staff that had alternating 
schedules, would make grotesquely inappropriate comments to me about 
the types of sexual activities they liked engaging in with women my 
age. One of them in particular would lean on me and breathe down my 
neck.
    To say that I was uncomfortable would be an understatement, but I 
didn't know what to do. This was my first cruise and I wanted to do 
well because I really liked the work. Unbeknownst to me, a crew person 
in the engineering department witnessed this behavior multiple times 
and submitted a formal harassment complaint. I was made aware of this 
complaint after the cruise when I received an email from the Executive 
Officer (XO) on the ship saying a sexual harassment complaint had been 
submitted, that the two accused deck staff had been informed that the 
complaint had been submitted regarding their behavior toward me, and 
that the XO and Commanding Officer (CO) were planning a visit to the 
NOAA science center where I worked to meet with me and retrieve my 
statement on the matter.
    I was shocked by this email and scared that this would affect what 
my supervisor and coworkers thought of me. I was also afraid of the 
potential retaliation from these crew members because the XO's email 
clearly stated that the two accused staff were told they were being 
accused of harassing me, using my name and implying that I had been the 
one to submit the complaint. I informed my supervisor of the situation 
and he encouraged me to write my statement and agreed to be present for 
the meeting with the XO and CO.
    During that meeting I told the XO and CO that I reviewed the NOAA 
Sexual Harassment Policy and brought highlighted copies to the meeting 
to show them that they were not supposed to divulge my name to the 
accused. They mostly brushed over that point. When they asked if I 
wrote my statement, I slid it across the table. The CO used his folder 
to catch the document mid-slide, he then told me that if he took my 
statement then this matter was ``out of his hands'', but if I took my 
statement back, then he could handle this matter ``in-house.'' I had no 
idea what that meant and needed guidance on how to make a choice. The 
CO said if he took my statement he would have to report it above him 
which would initiate a formal investigation, likely involving NOAA 
lawyers from headquarters. My supervisor then said that situation could 
get very ugly and complicated. I then asked what the CO meant by the 
``in-house'' option. He said he would personally make sure the two 
accused staff would not engage in this bad behavior again.
    I interpreted the CO's explanation of what it would mean to 
formally submit my statement as the option that would severely tarnish 
my reputation and potentially jeopardize my career path. I then took my 
statement back because I was young, inexperienced, and afraid. I had 
graduated from college only six months prior to this situation, was a 
contract employee, and wanted to excel at my job and please my 
supervisor.
    Right after that meeting, I went back to the lab where I worked to 
tell my coworkers about the meeting. None of them were surprised about 
the harassment I experienced with the two deck staff. They all 
confirmed that those two (and others) on the ship routinely targeted 
the new young women that joined the science party at sea. My coworkers 
told me I made the right decision to not submit my statement because 
during the likely formal investigation, the lawyers would probably turn 
it around to make it seem like I was inviting the sexual behavior by 
scrutinizing what I wore on the ship and for not telling these much 
older men to stop talking to me. I found all of this confusing, 
frustrating, and disappointing.
    Over the subsequent years, I would sail on that same ship with 
those same two deck staff. In fact, I was back on that ship just a few 
months later. One of the two accused, came to me immediately to 
apologize for his behavior. I happily accepted his apology and never 
had an issue with him again. We continued to work together for the next 
15 years until he retired.
    My interactions with the other accused person did not go well. I 
suffered retaliation from him for many years. To my face, he pretended 
I was not there, and refused to talk to me even when we had to work 
together. However, I found out later that he was saying horrible things 
about me to other science staff, such as claiming that I was 
unprofessional, sexually inappropriate, and a liar. He also directly 
threatened my safety at a port in Mexico, by telling at-sea supervisor 
that I should be careful because he could make me disappear while the 
ship was docked at this foreign port. My at-sea supervisor's response 
was to tell this person to stop saying things like that. I know this 
because he (my at-sea supervisor) reported this to me. He also warned 
me to steer clear of this person for the several days we were in port. 
Clearly this direct threat should have been handled differently, and I 
did not for one second feel safe while we were in that port.
    This same deck person would go on to harass young women until he 
retired. I know because many years later I was on a cruise where one of 
my young female staff came to me in tears to say she was sexually 
harassed by this same person. I immediately called a safety meeting 
with the deck department chief, the XO, and CO and told them of the 
matter. The immediate result was that the offensive deck person could 
no longer work alone with female science staff, which meant he had to 
change his work schedule for the remainder of the cruise. I wrote a 
formal statement to submit to my supervisor regarding the incident that 
would be included in the final cruise report, which is submitted to the 
CO and Office of Marine and Aviation Operations (OMAO), but I never 
received a response, and no action of which I am aware was taken.
    In 2015, I participated on a NOAA cruise as a watch leader with my 
coworker as the chief scientist. We both witnessed the chief 
engineering electronics technician (EET; in charge of all electronic 
systems on the ship) being visibly drunk the first day we set sail. My 
coworker and I both told him that he should get some coffee and sober 
up. He laughed it off and said he was fine as he staggered away.
    Shortly after that, this crew person started following me around 
which lasted for the next three days. He was drunk each time I saw him. 
There was one interaction I was able to avoid because my coworker/chief 
scientist saw the EET coming so I hid in a small room adjacent to the 
lab. When he saw that I wasn't in there, he left. The EET once followed 
me into my stateroom. I had my door open and only went in to retrieve a 
sweatshirt. He was saying many inappropriate things to me, very loudly. 
I told him that he needed to stop following me and should get sober so 
he could do his job properly.
    I told one of the NOAA Corps Officers that the chief scientist and 
I had interacted with the chief EET who appeared to be drunk and we 
felt concerned that our safety would be jeopardized if he didn't sober 
up. I also told the officer that the chief EET was inappropriately 
following me around and professing love. The officer told me he was 
aware of the situation and would take care of it. The next time I saw 
the chief EET, several days later, he was sober and avoiding eye 
contact.
    When I got back to land, I discussed the situation with my coworker 
who had been the chief scientist and told him that after thinking more 
about what we observed and experienced, I was not satisfied with how 
things were handled. I went to our supervisors and explained the 
situation. They were not sure how to proceed, so I said I would go to 
the deputy director of our science center.
    During the meeting with the center deputy director, he asked the 
chief scientist if he had been aware that the chief EET was drunk and 
harassing me. I was extremely disappointed that the chief scientist, 
who had witnessed the harassment and discussed it with me, chose to 
deny that it had occurred. However, the safety issues were a concern, 
and the center deputy director said she would bring this up at her next 
OMAO meeting. That prompted a phone meeting with the ship's CO, my 
division deputy director, the center deputy director, and myself, where 
the CO denied that he had been aware of the situation. I find that 
impossible to believe, since the entire ship talked about the chief 
EET's drunken state for three days. There was little else discussed 
during that phone call, and I have not received any follow-up since.
    Women on NOAA ships also experience disrespect to which our male 
colleagues are not subjected. A few years ago, I was a supervisor on a 
NOAA ship, and in charge of science operations for part of the day. 
During one of these occasions, one of the officers did not want to go 
to the location I requested and said instead that where we were headed 
was close enough. I told him it was not close enough and since the 
weather was permissible, I wanted to head to the new location. He then 
told me that my opinion didn't matter. The other officers heard him and 
said nothing. I told him that I was in charge of the science operations 
and needed him to change our bearing to get to the new location. He 
again told me my opinion didn't matter. I then told him that he should 
wake up the chief scientist and the CO to tell them his thoughts about 
my opinion. He didn't respond, and then changed the ship's bearing so 
we could get to the new location.
    On a NOAA cruise just two months ago, my two female staff were in 
charge, one as the chief scientist and the other as the watch leader 
(in charge when the chief scientist is off watch). The two female 
scientists noticed the ship's winch, which tows the scientific 
equipment, was not behaving properly. This is a severe safety issue, as 
a broken winch can maim or kill anyone standing on the ship's deck. 
These women both reported the potential winch malfunction to the 
officers on watch as well as the XO and CO during the safety meeting. 
Their warning was ignored, and the wire broke a few days later, 
resulting in lost equipment, but fortunately no injuries.
    During the post cruise meeting, the female watch leader told the CO 
that the winch was a major problem and needed to be investigated and 
tested. His response to her was, ``we can't make everything here warm 
and fuzzy for you.'' The CO then turned to our male colleague, and 
asked if he had anything to add. This male colleague was not on the 
cruise, had no leadership position, and was only present to help pack 
up our gear.
    Conditions for women's safety on NOAA vessels have improved in the 
time that I've been with NOAA/NMFS, but much more needs to be done to 
make the at-sea workplace an environment that protects the mental and 
physical health of women. I ask that the Committee explore ways to 
improve the culture on NOAA vessels, particularly the interplay between 
the science crew and ship's crew. If complaints are not taken seriously 
and junior staff are intimidated and abused, NOAA's ability to carry 
out its critical missions in an ever-changing ocean will be severely 
compromised.

    Thank you for the opportunity to share my experience and story.

                                 ______
                                 
                        Statement for the Record
                           Elizabeth Mitchell
                 Association for Professional Observers

Dear Chairman Cox and members of the Oversight and Investigations 
Committee:

    Thank you for the opportunity to share our organization's 
perspective on preventing harassment and needed response at the 
National Oceanic and Atmospheric Administration (NOAA). My name is 
Elizabeth Mitchell and I've been a fisheries observer for 25 years 
(1983-2008). I've worked in several programs, but mostly in the North 
Pacific Observer Program out of NOAA's Alaska Fisheries Science Center. 
I've been volunteering for the Association for Professional Observers 
(APO) since 1996 and became its president in 2000. Our organization's 
expertise is focused on advocacy for the health and welfare of 
fisheries observers, both in fish plants on shore and at sea and 
protected species/endangered species observers.

    The APO organized in 1995, due to a lack ofand contractor support. 
Observers were stranded at sea without pay because their contractor had 
gone bankrupt while they were out at sea. Observers attempted to get 
NOAA to intervene but they refused, demanding of the observers, under 
threat of lawsuit, the data they had already collected, claiming no 
authority over the contractor to demand their payment. Despite the fact 
that observers provide critical data to one of NOAA's primary 
functions, NOAA refused to help the observers. It remains so to this 
day, where outsourced observers are falling through legal cracks with 
little protections.

    Observers in the North Pacific were forced to unionize due to 
NOAA's hands-off approach to our welfare but, with the exception of 
Hawaii observers, the rest of the programs in the country are not 
unionized and remain vulnerable to abuses. This isn't to say the union 
is working or is a legitimate replacement for NOAA's responsibility. It 
is a desperate measure in absence ofoversight of worker protections.

    Harassment, both sexual and non-sexual, assault, bribery attempts, 
interference and even murder has plagued fisheries observers for 
decades and we believe it is more pervasive in the population of 
observers than of NOAA federal employees. Moreover, I believe we will 
see a rise in this harassment as ocean resources dwindle, requiring 
urgent action, implementation and monitoring of anti-harassment/
interference policies at all levels--NOAA (including NOAA Contracting 
Offices), monitored entities (fishing vessels, dredging or oil 
companies), observer providers and observers. Further, because 
observers are not federal employees, they frequently fall through legal 
cracks that increase their vulnerability both in personal safety and 
job security. This is why, if nothing else, we desperately need for 
those protections and worker rights afforded to NOAA federal employees 
to legally be extended to the's observers and those in programs that 
NOAA mandates observer coverage (such as the dredge programs).

FACTORS CONTRIBUTING TO OBSERVER HARASSMENT

    Workplace harassment is a result of bad company management. Since 
these are publicly funded programs, public accountability must be the 
cornerstone of NOAA's responsibly managed observer programs. From start 
to finish, there should be accountability measures for the factors 
influencing employee protections:

    <bullet> Hiring practices--NOAA has established hiring standards 
            through the NOAA National Observer Program (NOP) but has 
            not implemented them at the program level. In some 
            programs, they have lowered the requirements, specifically 
            because most people are not willing to put up with the 
            hardships, except those who have little opportunities 
            elsewhere. The pamphlet below used to be the Hawaii 
            program's promotional pamphlet, training done through a 
            local non-profit, the Alu Like program. They accepted 
            workers without formal education, trained them, and then 
            placed them in NMFS observer training reserved for those 
            who met the educational requirements. While meant in jest, 
            the flyer reveals a more serious flaw--that a hostile 
            environment, intimidation and harassment, including sexual 
            harassment, was part of the job. Observers must know from 
            the onset that harassment is NOT an acceptable condition of 
            employment.

            [GRAPHIC] [TIFF OMITTED] T0379.001
            

.eps    <bullet> Firing practices--Most work places practice a 
            `progressive disciplinary approach' toward holding 
            employees accountable for professional performance. In 
            Hawaii, a long-time observer was fired without any evidence 
            of wrongdoing by either his employer or NMFS. This is after 
            he reported sexual harassment from a captain. The union 
            agreement required a progressive disciplinary approach to 
            termination. Because the company, who was bound by the 
            union agreement, couldn't fire him, they turned to the NOAA 
            Contracting Officer Representative (COR) to circumvent the 
            Union Agreement and declare him `ineligible' for the 
            program. NOAA admitted that this is a standard method of 
            getting rid of observers and they are able to do it because 
            NOAA is not the observer's employer. He said: \1\
---------------------------------------------------------------------------
    \1\ Obtained through the Freedom of Information Act (FOIA).

         ``As COR I don't have to give a reason why an observer is no 
            longer allwed to collect data for our program. Although I 
            always do. Basically I do not terminate a contractors 
            employee. I am just saying they can no longer work for our 
            program. If the contractor has other work for them in other 
            areas they can still work for the contractor. But the case 
            usually is they are specifically trained for our program 
            and the contractor does not have work for them in other 
            areas. This is one of the BIG advantages of having contract 
            observers. In the past whenever we needed to disquality an 
            observer's eligibility from our program, this is how we did 
            it. We meaning I work together with the contractor so we 
            both agree and I send an email to the contractor 
---------------------------------------------------------------------------
            disqualifying the observer.''

      In this way, NOAA is able to fire an observer without the 
            observer having any legal recourse or appeal process 
            normally afforded NOAA's own employees. Each time anuses a 
            shady practice and gets away with it, it sends a message to 
            others to ``put up and shut up'' or this will happen to 
            you. This contributes to an under-reporting of harassment. 
            NOAA needs legislation to close this loophole.

    <bullet> Removal of conflicts of interest--Observer providers 
            having direct contract with the fishing company with no 
            obligation of public transparency, rather than with NOAA; A 
            port coordinator marrying a prominent local captain whose 
            multiple vessels she is in charge of providing an observer; 
            Hiring a fisherman to monitor his own fishery--these are 
            just some examples of unresolved conflicts of interest in 
            NOAA observer programs and demonstrates a lack of oversight 
            and confidence that NOAA will have the observers' back.

    <bullet> Adequate training--Training, especially in adequate 
            documentation of violations and one's own harassment, is 
            extremely vital--especially for observers because they 
            often don't have a cooperating witness, so their 
            documentation of events must be stellar. Observers need a 
            clear pathway toward reporting violations, addressing an 
            emergency at sea, their worker rights, and how to appeal a 
            decision.

    <bullet> Lack of appeal process--Most programs do not have an 
            appeal pathway to follow if they disagree with an agency 
            decision.

    <bullet> Trauma resources and policies--At the International 
            Fisheries Observer and Monitoring Conference (IFOMC), 
            observer mental health was highlighted as a significant 
            threat due to the stresses of the job. NOAA should 
            coordinate the NOP with each program to develop local 
            resources and have this be a part of each program's 
            Emergency Action Plan. Observers must be informed of who, 
            what, where and how they will be rescued if their well-
            being is threatened.

    <bullet> Effective communication with the vessel--Observers are 
            working on vessels where English is not the first language. 
            Often stresses develop when the crew is not aware of the 
            observers' duties and their responsibilities. NOAA should 
            translate and distribute to vessels critical documents that 
            clearly express observer rights and stakeholder 
            responsibilities toward each other.

    <bullet> Enforcement follow-up. Many observers have complained that 
            they never hear from OLE regarding updates on the 
            investigation of their complaints. In Fiji, an observer 
            reported several violations on board a US purse seine 
            vessel. OLE took 6 months to reach out to him and 
            interview, a delay that likely compromised the 
            investigation. To date, he hasn't heard about the results 
            of his report or the investigation of the US vessel.

    <bullet> Public transparency and analysis of observer harassment--
            Public oversight of fisheries monitoring programs is 
            necessary to make sure that observers receive adequate 
            support to effectively and safely carry out their duties, 
            free from violence and interference. Transparency imparts 
            the necessary confidence to the observer community and the 
            public that the agency is monitoring the observers' safety 
            to ensure that they may continue to successfully report on 
            this critical information. If observers lack confidence in 
            the system that is supposed to represent and protect them, 
            they cannot be expected to do their job appropriately or 
            effectively. Likewise, without transparency, the public 
            will not have confidence in the veracity of the fisheries 
            monitoring program. Securing the confidence of the public, 
            and of the observers reporting the information, can only be 
            achieved through an open and transparent reporting system.

      Yet, most observer programs do not report on observer harassment 
            or compliance information in a systematic or transparent 
            way. Many observer programs also require observers to be 
            sworn to secrecy, but with vague parameters so that you 
            never really know what your rights are, and with threats of 
            punishment should they violate rules of engagement with the 
            public. This secrecy surrounding what observers experience 
            and witness misleads the general public about the true 
            challenges in attaining sustainable fisheries. It also 
            stifles observers from discussing harassment openly.

      APO has been attempting to receive observer harassment statistics 
            through FOIA since 2006 but it is obvious that NOAA does 
            not track observer harassment, either nationally or 
            regionally, because each year, the statistics released are 
            plagued with delays and incompatible formats from year to 
            year, making it impossible to follow trends. Only one 
            program in the country reports annually on observer 
            harassment and interference (North Pacific) but the 
            outcomes are impossible to follow. NOAA should analyze 
            observer harassment in all programs separately and do this 
            annually (with a report that is publicly available) in such 
            a way that allows following each case to outcome to gauge 
            effectiveness of enforcement and influence of other 
            factors.

    <bullet> Lack of adjudication processes--In the United States, 
            there are only three Administrative Judges, under the 
            Environmental Protection Agency, in the entire country to 
            adjudicate cases of observer harassment. In one harassment 
            case by a repeat offender in the Hawaii longline fishery, 
            NOAA brought this case for prosecution. Despite the 
            observer clearly getting harassed for over a month and 
            having to lock himself into his room as he called the coast 
            guard to be rescued, the EPA Administrative Judge claimed 
            it never turned physical and dismissed the case because the 
            observer was deemed to be able to conduct his assigned 
            duties. I think you'll find that when someone is being 
            abused and they have no control over it, it's common to 
            concentrate on what you do have control over, which, in 
            this case, was carrying out his duties. While he was able 
            to complete his duties, I don't know of any workplace where 
            someone is expected to tolerate a repeatedly hostile 
            environment. Indeed, NOAA has a warning poster (intended 
            for fishermen) that states, ``It is unlawful to . . . 
            harass an observer . . . orcreate an intimidating, hostile, 
            or offensive environment (my emphasis)''. So why did NOAA 
            not appeal? The Magnuson-Stevens Act actually doesn't 
            forbid harassment, offensiveness or a hostile environment. 
            It says, ``. . . it is illegal to . . . forcibly assault, 
            resist, oppose, impede, intimidate, sexually harass, bribe, 
            or interfere with any observer on a vessel . . .''. NOAA 
            needs to analyze observer complaints and figure out exactly 
            all the many ways observers are prevented from doing their 
            job and entering into a hostile environment. The MS 
            language needs to reflect a prohibition of these acts. NOAA 
            should adjust the language in the MSA and other Acts 
            governing US-flagged vessels by removing the word 
            ``forcibly'' (because all assault is forcible); add 
            ``harass'' (no qualifiers); and add, ``. . . orcreate an 
            intimidating, hostile, or offensive environment.''

    <bullet> Lack of National Strategy--There have been many reviews 
            dating back decades to address these vulnerabilities but we 
            have seen little changes at the program level despite 
            efforts by the National Observer Program (NOP) to bring 
            about standardized best practices. NOAA should implement 
            best practices and standards developed by the NOP to all 
            programs for every aspect of the observer program 
            management and implement these throughout the nation.

Types of Observer Employment under NOAA's jurisdiction

    <bullet> National--Observer provider contracted directly with the 
            fishing company--portion of the North Pacific (unionized) 
            and Northeast observer programs: This competitive 
            arrangement with multiple observer providers for the 
            vessels to choose from, has long been recognized as a 
            conflict of interest and a bad arrangement for observers 
            because fishing companies have more influence over the 
            observer. Despite unionizing in the North Pacific program, 
            harassment persists. Because of this, in 2004, NOAA's 
            Office of Inspector General (OIG) recommended that NOAA 
            scrap this model but NOAA ignored the recommendation and 
            brought it to the Northeast. These observer providers are 
            only ``certified'' by NOAA, further removing NOAA from 
            responsibility.

    <bullet> Observer provider contracted directly with NOAA--portion 
            of the North Pacific; Southeast observer programs). NOAA 
            has potential to have greater control over the contractor's 
            performance by inserting requirements for observer welfare 
            in the observer provider contracts with NOAA. This is 
            currently lacking.

    <bullet> Observer provider contracted directly with NOAA but the 
            observers are unionized (Hawaii). This ideally would be the 
            best model of all employment arrangements for observer 
            protections for contracted observers if NOAA inserted 
            observer protections into its contract and the union 
            covered any gaps. Unfortunately, not only are there gaps in 
            the contract for observer protections but NOAA deliberately 
            and openly admits it regularly circumvents Union 
            protections and are able to do it because they are not the 
            observers' employer.

    <bullet> Observer provider hires the observer as an Independent 
            Contractor (Protected Species/Endangered Species 
            Observers)--These observers are some of the most vulnerable 
            to abuses because NOAA mandates oil and dredge platforms to 
            carry observers but has nothing to do with them or the 
            oversight of these programs. They're not even a program. 
            There's no training, professional standards, debriefing, 
            injury insurance or information on their worker rights or 
            emergency plans. Some observers have to volunteer to be 
            ``trained'' on the platform by another observer prior to 
            working alone.

    <bullet> Non-US Observers are hired by their Regional Observer 
            Program to monitor a US-flagged vessel. Here NOAA must 
            ensure US-flagged vessels are abiding by US law, including 
            anti-harassment laws.

    Thank you for allowing me to submit this testimony and I hope 
you'll consider the suggestions.
                                 ______
                                 
                        Statement for the Record
                          Simione S.B Cagilaba
       US Multilateral Treaty Observer, South Pacific (1997-2015)
    Thank you for the opportunity to express myself before this 
subcommittee. In light of recent fisheries observer disappearances that 
shook the Scientific Observer tight knit family worldwide, I believe 
that all those who survived harassment at sea, sexual or nonsexual, 
should be entitled to share their story. They deserve to be heard since 
they were the fortunate ones, while others will not be coming home at 
all. Indeed, observers, who provide critical fisheries data to the 
National Oceanic and Atmospheric Administration (NOAA), have more 
threats against them than most NOAA employees.
    I served on numerous US-flagged Tuna Purse Seine fishing vessels 
that operate out of Pago Pago, American Samoa under the US Multilateral 
Treaty from as far back as 1997 until 2015, in my capacity as Observer 
from the South Pacific. I intend to highlight certain weak areas which 
can be improved upon within NOAA when it comes to Observers that 
operate under their jurisdiction[s].
    The majority of my working career revolved around the fisheries 
sector, where I served under various roles. However, they all dealt 
with Tuna Fisheries in the South Pacific. As for my professional 
training and experience, I have worked as a Regional Scientific 
Observer, Fisheries Enforcement Officer, Fisheries Monitoring and 
Surveillance Officer, and as a Criminal Investigator at the Fiji Police 
Academy Detective School. Last, I studied Law at the University of the 
South Pacific and have remaining 2 more years before receiving a 
Bachelor of Art of Marine Affairs and Bachelor of Law.

    The challenges faced, is not only at sea but sometimes it occurs 
right on land with the very officials that we rely on for guidance and 
assistance. I shall break down the problem areas that contribute to the 
danger of fisheries observers, as follows:

  1.  Placement Officer(s) colluding with fishing personnel

  2.  Lack of oversight of NMFS field staff

  3.  Captain harassment

  4.  US-flagged vessels owned by foreign entities under a ``Flag of 
            Convenience''

  5.  Lack of training of crew on observer duties

  6.  Subpar investigative techniques from NOAA/NMFS following 
            complaints.

    Before I go into detail, I must take a bit of my time to commend 
some of the fully owned and operated US Purse Seiners operating in the 
South Pacific for having been some of the most compliant vessels that I 
have ever worked on. However, it is almost the total opposite when it 
comes to US-flagged purse seine vessels (under flag of convenience--
FOC) when they are run by non-US citizens, with a ``paper captain'' 
(i.e. the captain has no real authority)--something that should be 
transparent to the world. These vessels carry the most risk for 
observers, when it comes to compliance requirements.
    In regards to the realities of observing whilst out at sea, the 
challenges normally come through from various levels, that make 
observing work really difficult. One of the things that I quickly note 
was that some FOC vessels do harass and interfere regularly with 
observers.
    My ordeal unfolded when I boarded the rrrrr, a US registered/
flagged, Taiwanese-owned Purse Seine Vessel, who's fishing port was 
Majuro, Marshall Islands. The vessel had a Forum Fisheries Agency (FFA) 
fishing license which granted them fishing access to all the FFA member 
countries fishing grounds under the US Multilateral Treaty.

    This brings me to one point that I believe needs to be addressed by 
the US Congress. Foreign nations are accessing fishing grounds of other 
sovereign nations, using US flag registry, yet they are not bound, as a 
nation, to the treaty. They can do this because currently US law only 
requires that there be a US citizen serving as captain on board in 
order to have the vessel flagged under the United States. On this 
vessel, there was one US citizen, the US captain who harassed me. All 
the other officers--another Captain, the Fish Master, Navigator and the 
Interpreter were Taiwanese. The rest of the crew were Chinese, 
Taiwanese, Indonesian and South Vietnamese.

    This blanket coverage covers all of the FFA member countries and 
the reporting protocols are more or less the same for each. In our case 
the Captain made a set within Marshallese waters (Exclusive Economic 
Zone--EEZ) where we caught fish but the Captain recorded it as 
``skunk'' (meaning they did not catch any fish) because he didn't want 
to be charged for it when he offloaded in the Marshall Islands. The 
Captain asked me to falsify my data to look like they didn't catch 
anything, so that it would match his records, but I refused. He looked 
at me angrily and went away. Later on, he again asked me this time more 
sternly to adjust my records. When I again refused, he became angry.
    The second incident occurred within US waters close to Howland and 
Baker Islands whereby 2 Asian crews, whom I believe were Vietnamese, 
dumped 10 large bales of plastics and strappings into the sea. Ocean 
pollution from fishing gear is recognized as a major threat to marine 
life and is a breach of the International Convention for the Prevention 
for Pollution from Ships regulations (MARPOL). The captain again 
attempted to coerce me into ignoring the violation, which I again 
refused. He became furious and the next day he approached me again and 
asked me again to falsify my report, which I again refused.
    Later in the trip, a third instance emerged where the US captain 
again attempted to get me to falsify my record regarding fish discards, 
which I again refused. This time, he then threatened me and said that 
he will call his ``friend in American Samoa'', a NMFS officer, namely 
rrrrr, to ``deal with me''.

    Keep in mind, while this vessel's home port was Marshall Islands, 
rrrrr was in Pago Pago, American Samoa, so it is curious why the 
captain would seek assistance from rrrrr rather than NOAA staff in 
Majuro, Marshall Islands, where it was fishing. This indicated to me 
that the Captain knew rrrrr would offer him protection from violations 
which I refused to hide. Indeed, it appears a conflict of interest that 
a US captain should exercise such familiarity with a federal agency 
staff that not only has no authority over the observers, but is the 
very agency who is in charge of investigating the observer reports in 
US fisheries monitoring under the Multilateral Treaty.

    I knew I did nothing wrong and later in the evening, whilst 
conducting my duties in the wheelhouse, I heard the Captain talking on 
the phone disparagingly about me. I was not swayed and I continued on 
back to my room and updated my workbook. However, the next day, I 
received a printout of an email from my supervisors to the Captain, 
that was cc'd to rrrrr. My supervisors in Fiji wrote to me the 
following, through the captain, cc-ing rrrrr:

        ``Bula Captain

        Appreciate that the following information is given to Observer, 
        Simione Cagilaba, currently on your vessel. Simi, we have 
        received information from NOAA (my emphasis) and FFA on your 
        performance on board the vessel. Just to remind you that you 
        are an observer and therefore is to confine yourself to duties 
        of an observer and that is to observe and record what you see. 
        You are never to direct or make threats to anybody on board the 
        vessel.

        Thank you, Captain.''

    I knew that the Captain would do this in order that the authorities 
would sympathise with him in his attempt to brand me as the offender or 
aggressor for simply doing my work as any other Observer would. I sent 
in an explanation to one of my supervisors back in Suva, Fiji Islands, 
and included the information about rrrrr. However, I knew that they 
have already leaned towards rrrrr, a long-serving NMFS officer at least 
since the 1990s.
    I later learned that this vessel was a repeat offender, having just 
prior been fined a large sum for a violation by US courts, which 
explains why the Captain was so hostile toward me doing my job. Instead 
of investigating the situation to find out what happened and hear my 
version of events, the e-mail emboldened the Captain. In doing so, my 
supervisors and NOAA exposed me to further danger.
    From that point on, the atmosphere became very volatile whereby the 
cook allowed the Vietnamese crews (2 of whom were implicated in the 
MARPOL incidents) to drink using the vessels rice wine supply, which 
always ended up with fighting occurring and in some instance heavy 
chopping knives were used just outside our door. In one instance, my 
other roommate who was a Chinese national and also the Deck Boss, had 
to jump for the door to lock it and push against it since the shouting 
and fighting was getting closer and closer. Now when I sit down and 
reflect, I realised that was a close call for me since I have 
identified them previously and thereby threatened their careers. And 
that led to my unease that I stayed up for most of the time during the 
night and slept whenever there was a lull in our fishing operation 
during the day.
    At the conclusion of the trip it was noted that the vessel breached 
the regulations with the following actions;

    <bullet> Operator or any crew member assault, obstruct, resist, 
            delay, refuse boarding to, intimidate or interfere with 
            observers in the performance of their duties.

    <bullet> Request that an event not be reported by the observer.

    <bullet> Fail to comply with any Commission Conservation and 
            Management Measures (CMM's)

    <bullet> Inaccurately record retained ``Target Species'' in the 
            vessel log for weekly reports

    <bullet> Inaccurately record ``Target Species'' Discards

    <bullet> Land on deck Species of Special Interest (SSI's)

    <bullet> Dispose of any metal, plastic, chemicals or old fishing 
            gear

    <bullet> Carry out of date safety equipment.

    After attempting several times to disembark, we finally arrived in 
the Marshall Islands. I immediately relayed my experience to the 
Marshallese Observer Coordinator, who down played my account of events 
and told me to get back on the vessel, thereby placing me in further 
danger. I told the Coordinator that I did not feel safe going again to 
the same vessel however he was persistent. I later learned that he had 
a very close relationship between him and the vessel's agent on land, 
so I was worried my report would be buried. I knew that I had to make 
this report known since that will be my only chance of getting out of 
Marshall Islands safely.
    My only option was to notify the US Embassy in Majuro, Marshall 
Islands who acted swiftly and relayed the message to NOAA to keep me 
from going back on the vessel. It also secured my report from being 
buried by Fijian officials. NOAA then influenced program officials to 
release me from my assignment.

    I was later fired upon my return to Fiji and it made me realise 
that some government officials from some Pacific island countries are 
overly familiar with the fishing company personnel and their boat 
agents and have been compromised, making our jobs as fisheries 
observers impossible and dangerous. As a result of getting fired, this 
further sent ripples throughout the observer community in the Pacific 
Islands, that:

  1.  NOAA has unofficial control over our employment and the reports 
            of witnessed violations that we submit, which, in my view, 
            is a conflict of interest since NOAA is also charged with 
            protecting the commercial interests of US-flagged fishing 
            vessels.

  2.  There is a perception of collusion between NOAA and the fishing 
            industry in the region;

  3.  Observers cannot go against the captain to report what they 
            witness, even if it is illegal.

  4.  Observers will not feel safe to report openly to their home 
            programs.

    The only reason my report of US fishing vessel violations did not 
get buried by my supervisors is because I reported it to the US 
Embassy, fearing my life was in danger. However, what followed was a 
debacle with regard to the investigation of the vessel that followed by 
NOAA Office of Law Enforcement (OLE) in Hawaii. It took six (6) months 
for NOAA OLE in Honolulu to interview me. Then they went to American 
Samoa to interview more people, though I'm not certain who. However, 
given the fact that the captain reported directly to NOAA's rrrrr, and 
rrrrr pressured my supervisors, I imagine he had to provide his account 
in the investigation. Instead of being held accountable for this, the 
investigation was buried by NOAA and rrrrr retired from NOAA a month 
later. I have yet to hear any result from my ordeal or the reports I 
submitted regarding even my harassment.
    This experience prompted me to come out openly and share my 
experience so that it will hopefully help colleagues or the relevant 
agencies into formulating Standard Operating Procedures (SOP) or Laws 
to protect against the reoccurrence of such incidents.

    To conclude I wish to point out a few areas where NOAA, NMFS, and 
OLE could look into in future to avoid such incidents from ever 
happening again in any US flagged vessel irrespective if it is US owned 
or not.

  1.  The mandatory implementation of SOPs and other accountability 
            measures to cover all stakeholders, with regard to the 
            treatment of Observers (irrespective of nationality) who 
            serve under the US Multilateral Treaty on Fisheries 
            programme, and on any US fishing vessel operating in non-US 
            waters. This might require that NOAA renegotiate the 
            Treaty.

  2.  Mandatory SOP for ensuing NOAA OLE investigations so that proper 
            standardized investigatory procedures are followed that 
            allow immediate gathering of evidence, including 
            statements.

  3.  That there be a mandatory conclusion of every investigation that 
            is publicly accessible. This would stifle any attempts to 
            cover up wrong doing.

  4.  Clear protocols regarding observer duties be conveyed through a 
            placement meeting between the Captains, crew and Pacific 
            Island observer coordinator, and the observer in multiple 
            languages according to crew nationalities. This should 
            conclude with a legal document describing each 
            stakeholder's responsibilities, translated in multiple 
            languages according to vessel personnel nationalities, that 
            are signed by all and a copy received by all.

  5.  Since under the treaty, NOAA is responsible for investigating 
            infractions by US-flagged vessels the investigations should 
            be prioritized and followed up within 1 month. A six-month 
            delay will likely render any investigation lost. Since the 
            offences were very clear all that was left to do was to 
            collect the evidence, record the statements to adduce the 
            evidence that will prove the elements of the offence and 
            forward them to Prosecution Office for further sanctions 
            and actions.

  6.  NMFS officers posted to US outer islands should be rotated with 
            no more than 5 years in the field, so as to maintain their 
            integrity and impartiality.

  7.  Finally, Observers could be administered Go-Pro cameras to film 
            interactions as a means of evidence gathering and self-
            protection.

    And I pray that this humble testimony of a survivor would be heard 
and taken heed of. And at the same time acknowledge all my fellow 
colleague[s] who have been deployed and never came home.

    Thank you for reading my testimony and for holding this hearing.

                                 ______
                                 

                        Statement for the Record
                            Patrick Carroll
                    U.S. Fisheries Observer, Florida

    My name is Patrick Carroll. I started observing in 2000 with the 
North Pacific Observer Program where I worked for 5 years on a seasonal 
basis, completing some 550 days of deployment at sea. In 2006, I went 
to work for the Southeast Observer program at the Galveston Laboratory. 
I stayed with the latter until my unfair termination in 2018, after 
completing over 1000 days at sea.

    The difference between these programs were significant. I found the 
North Pacific program to be efficiently run with consideration and 
thanks given to observers for their work, they also used technology to 
incorporate observer data rapidly into their database as well as check 
the raw submitted observer data for errors and discrepancies. Observer 
provider subcontractors supplied observers to this program but not 
coordinators or other office personnel. I was extremely satisfied with 
my experience with the North Pacific Observer program, both in the way 
I was treated, with respect and thanks, and trained. I was also 
impressed with the efficiency of the program itself, both in how raw 
data was handled and how we were trained.

    My experience with the North Pacific Observer Program stands in 
extreme contrast to what I experienced in the Southeast Reef and Shrimp 
Observer program. My initial training with this program occurred in 
June 2006. The safety portion of the training was very similar to what 
I experienced in The Northwest program, but the similarity ended with 
the protocol training which left much basic information unexplained, as 
well as their use of paper documents and total lack of digital 
interface between the raw data and ensuing corrections. What was also 
interesting in this initial training was a statement by a rrrrr, who 
was subcontracted then and later hired as a federal coordinator in the 
Galveston office, that ``we could be fired at any time and for any 
reason'' because ``Texas was a right to work state''. At the time of my 
initial training in 2006, both of the observer coordinators in the 
Galveston office were subcontracted employees of rrrrr. Approximately 4 
years later this was determined to be a conflict of interest, and they 
were hired as federal employees, with another subcontracted coordinator 
who had been hired in the interim. Approximately 3 years later more 
coordinators were found to be needed in the office, and were hired as 
subcontractors, in direct opposition to the determination that this was 
a conflict of interest.
    I unfortunately ran into a problem with one of the subcontracted 
coordinators, who felt that he could ``do whatever he wanted'' as to 
the grading of our submitted trip reports. I complained to my 
subcontractor manager who spoke to this employee as well as the other 
subcontracted coordinators, and told them that they could not do 
whatever they wanted. Soon after this minor complaint against a 
specific individual, I began to be harassed by both the subcontracted 
as well as the federal coordinators, in retaliation for my complaint 
against a single individual. This harassment included increased 
scrutiny of my performance, arbitrary decisions against me, ostracized 
at social function, and ultimately violation of my civil rights, based 
on my age, which apparently they were entirely unaware of, as they in 
their ardor to punish the squeaky wheel never investigated or 
considered.
    I made my subcontracted manager aware of this situation, to which 
she was initially commiserate, but then became accusatory to me. This 
change in her demeanor I can only attribute to her unwillingness to 
censure coordinators, thereby making the contracting company look 
irresponsible by placing these people in positions of power which they 
abused. I cannot tell you how bad it feels to be fired by a manager for 
insubordination, when 2 weeks before the same manager told you that you 
were a good employee who produced good work, after 12 years of 
dedicated service in more than trying circumstances. I and all 
observers deserve better than this treatment. Observers risk their 
lives to collect this data which is vital to fisheries management in 
the United States, yet they are subcontracted and subjected to the 
whims and circumstances of competitive bidding, non standardized 
programs and personnel management practices of the lowest bidders. This 
does not happen with the armed forces, with whom observers are similar 
in that they risk their lives to a certain degree in the best interest 
of the nations resources. Commercial fishing is consistently ranked the 
most dangerous job in the country, the observers who risk their lives 
providing the data for fisheries management should be treated with 
respect and program continuity and integrity which is beyond the self 
interest of subcontracted observer provider companies. Please remember 
that no one has considered subcontracting the US Coast Guard, Navy or 
Marines, observers deserve the same respect and guarantees.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submissions for the Record by Witness Julie Dale

  --  Department of Public Safety--2018 Felony Level Sex Offenses, 
            Crime in Alaska Supplemental Report

  --  STAR Community Prevention & Education Manager Qualifications

  --  Contract Purchase Order dated September 18, 2019

                                 [all]
</pre></body></html>
